                                 NATIONAL SCIENCE FOUNDATION
                                       4201 Wilson Boulevard
                                     ARLINGTON, VIRGINIA 22230




      OFFICE OF
 INSPECTOR GENERAL


MEMORANDUM
                 MAR 2 5 2011
DATE:

TO:         Mary F. Santonastasso, Director
            Division of Institution and Award Support

            Karen Tiplady, Director
            Division of Grants and Agreements


FROM:        Dr. Brett M. Ba
             Assistant Inspe


SUBJECT: Audit Report No. 11- 1-011, Internal Control Review at
         North Carolina Central University


Attached is the final audit report, prepared by WithumSmith & Brown, PC, an independent
public accounting firm, on the performance audit of internal controls at North Carolina Central
University (NCCU) for the fiscal period July 1, 2008 to June 30, 2009. During this fiscal period,
NCCU claimed $1.1 million of expenses on its nine (9) active NSF awards with a total value of
$6.1 million dollars. The objective of this audit was to determine if NCCU has internal controls
in place that allow for reliable accountability and stewardship of National Science Foundation
(NSF) funds in accordance with the terms and conditions of the University's IVSF awards.

NCCU was selected for audit to ensure that previously identified internal control weaknesses
have been corrected and that existing internal controls over financial and compliance reporting,
and administration of its NSF awards are working as intended.

The auditors concluded that NCCU personnel did not always follow University policies and
procedures in the areas of budget transfers; monitoring budget to actual costs, especially
participant support costs; travel policies; equipment purchases and inventory; payroll and fringe
benefits; accounting and reporting of indirect costs; and, compliance with NCCU's own IT
general controls. As a result of the control deficiencies found, the auditors questioned $35 1,340
in NSF-funded award costs and $4,193 in cost sharing. The amount of NSF-funded costs
questioned by the auditors comprised 3 1% ($35 1,340/$1,119,675) of the total costs claimed by
NCCU for the one year period encompassed by this audit. Thus, if left uncorrected, the internal
control and compliance weaknesses identified by this audit may continue to occur and affect the
nine current and any future NSF awards given to NCCU. The key findings cited in the audit
include:


       Lack of Adequate Internal Control for Budgeting and Accounting, including
       Participant Support Costs. Budget transfers were not always properly approved.
       Additionally, the NCCU Banner General Ledger (GL) system has no separate GL Code
       to capture participant support costs for either the budgeted or actual costs, making it
       difficult to monitor expenses by cost category, especially for participant support costs,
       against NSF approved award terms. The share of budgeted participant support costs for
       all 9 active grants on a cumulative basis was $266,007. Therefore, we questioned the
       $266,007 due to the lack of specific accounting records and supporting documentation
       that delineates participant costs by cost category and by award.

       Universitv & Federal Travel Policies Not Followed. NCCU follows North Carolina
       Office of State Budget Management's (OSBM) travel policies and procedures for costs
       incurred for federal awards rather than federal travel guidelines. Total travel expenses
       charged to NSF awards for fiscal year 2009 were $97,907 (8.7% of total costs incurred).
       We questioned $2,621 of travel costs because these costs were in excess of allowable
       Federal lodging and per diem meal rates, were not properly approved, or were
       unsupported.

       Lack of Adequate Control Over Equipment Purchases. Two instances were noted
       where NCCU purchased equipment that was not in compliance with the terms of its NSF
       awards: i) 5 Global Positioning System (GPS) for robots ($34,975) and ii) 12 laptop
       computers ($10,496) aggregating to $45,471 in questioned costs.

       Payroll and Fringe Benefits Procedures Not Followed. The audit found multiple
       instances of payments that were not in accordance with the terms of the IVSF approved
       awards in the amount of $10,852, which amount was questioned. In one instance it was
       noted that an employee charged 100% of salary cost to an NSF award, even though only
       70-80% of actual labor effort was expended working on the NSF award. The amount of
       excess salary charged to the NSF grant totaled $6,300. Therefore, we questioned a total
       of $17,152 in payroll and fringe benefit costs.

       Inadequate Accounting and Reporting of Indirect Costs. The audit noted that the
       indirect cost basis (i.e. indirect cost base) in NCCU's Banner System was incorrectly set
       up, which resulted in incorrect computation and allocation of indirect costs to NCCU's
       NSF Projects. The indirect costs charged to NSF for all of the 9 active grants during
       fiscal year 2009 was $178,979 amounting to 16% of the total costs claimed to NSF of
       $1,119,675. Per our computations, we questioned $20,089 in indirect costs, which is the
       total net excess of indirect costs charged by NCCU to NSF.
       Fixed Assets Phvsical Inventorv Deficiencies. NCCU completely omitted one location
       during its annual physical inventory count. This did not result in questioned cost,
       however lack of proper controls can cause the loss or misuse of NSF supported assets.

       Lack of Compliance with NCCU's Own IT General Controls. The audit identified the
       following: i) program changes were not approved by designated personnel; ii) patches to
       critical servers were not applied on a timely basis; iii) user accounts of terminated
       employees were not completely disabled and were found to be partially active; iv) list of
       authorized users displayed at the data center was not current and did not match the
       system generated list of users having access to the data center. None of the above resulted
       in questioned costs related to NSF projects; however the lack of the above IT controls
       could compromise the systems that are used to administer and account for NSF project
       funds.

       Inadequate Internal Controls Over NSF Grant Compliance Requirements for Cost
       Share and Conflict of Interest. NCCU has not complied with the 1% cost sharing
       requirement for the fiscal year ended June 30,2009 and total cost sharing per our
       estimate for fiscal year 2009 for the three projects amounted to $4,193. Our inquiry and
       procedures indicated that the annual disclosure statements were not completed by the
       IVCCU Principal Investigators for any of the awards under audit for fiscal year 2009.

As a result of the audit, we recommend that NSF's Director of the Division of Institution and
Award Support (DIAS) address and resolve the following recommendations made to NCCU for
its system of internal controls as follows:

NCCU management should i) exercise greater control over their budgetary process for
monitoring NSF award costs and should adhere to their own policies and procedures regarding
monitoring of budgetary activities, including creating separate GL accounts in Banner for
participant support costs; ii) enhance travel expense procedures to include documentation where
travel costs deviate from federal travel guidelines; iii) reinforce the requirement for appropriate
NSF approvals to ensure that assets are purchased in accordance with terms of the NSF approved
award; iv) strengthen its internal review process to ensure that salary and fringe benefit costs
charged to NSF Grants is per the NSF award; v) monitor the rates and bases used for negotiated
indirect cost agreements to ensure the rates are in compliance with NSF award terms and
properly applied; vi) exercise greater care in the annual physical inventory, vii) exercise greater
control over the tracking and reporting of the required 1% statutory cost sharing and, viii)
comply with NSF guidelines pertaining to conflict of interest documentation. Finally, NCCU
should also ensure that i) all program change requests are approved by authorized personnel
before being implemented; ii) all critical servers are patched and kept updated as per the
corporate policy; iii) the access for terminated employees is revoked on a timely manner from
both the Active Directory and Banner System; and iv) the authorized users list displayed on the
data center is updated to reflect the current list of authorized users.
NCCU agreed that it had not applied the proper indirect cost rates to its NSF awards and
provided explanations for the remaining findings that will be considered and resolved by NSF.

In accordance with OMB Circular A-50, please coordinate with our office during the 6-month
resolution period to develop a mutually agreeable resolution of the report findings. Also, the
report findings should not be closed until NSF verifies that all the recommendations have been
adequately addressed and corrective actions have been satisfactorily implemented.

OIG Oversight of Performance Engagement

To fulfill our responsibilities under Generally Accepted Government Auditing Standards, the
Office of Inspector General:

       Reviewed WithurnSmith & Brown's approach and planning of the audit;
       Evaluated the qualifications and independence of the auditors;
       Monitored the progress of the engagement at key points;
       Coordinated periodic meetings with WithumSmith & Brown and OIG management to
       discuss engagement progress, findings and recommendations;
       Reviewed the audit report prepared by WithumSmith & Brown to ensure compliance
       with Generally Accepted Government Auditing Standards and American Institute of
       Certified Public Accountants standards and Office of Management and Budget Circulars;
       and,
       Coordinated issuance of the audit report.

WithumSmith & Brown is responsible for the attached auditor's report on North Carolina
Central University and the conclusions expressed in the report. We do not express any opinion
on the internal controls or conclusions on compliance with laws and regulations.

We thank you and your staff for the assistance that was extended to our auditors during this
audit. If you have any questions regarding this report, please contact Jannifer Jenkins at 703-292-
4996.


Attachment
    INTERNAL CONTROL PERFORMANCE AUDIT
                    OVER
     NATIONAL SCIENCE FOUNDATION FUNDS
                AWARDED TO
     NORTH CAROLINA CENTRAL UNIVERSITY


                     FOR THE PERIOD
                JULY 1, 2008 – JUNE 30, 2009


                         February 27, 2011




ACCOUNTING & AUDIT ■ TAX ■ CONSULTING ■ CORPORATE GOVERNANCE ■ RISK MANAGEMENT
                                Executive Summary
The Office of Inspector General (OIG), initiated this performance audit to determine if North
Carolina Central University (NCCU) currently has internal controls in place that allow for reliable
accountability and stewardship of National Science Foundation (NSF) funds in accordance with
the terms and conditions of NSF awards in order to ensure NCCU's ability to meet NSF program
goals and objectives.

NCCU was selected for the audit by NSF OIG to ensure that previously identified internal control
weaknesses have been corrected and that existing internal controls over financial compliance,
reporting, and administration of its NSF awards are working as intended. Specifically, NSF OIG
became aware via a newspaper article in the Fayetteville Observer in February 2008, about a
fraud committed on Federal awards (not NSF awards) by a senior official at NCCU. In addition
a financial statement audit under Office of Management and Budget (OMB) Circular A-133 of
NCCU issued by Office of State Auditor (OSA) for the year ended June 2007 reported material
weaknesses which included NCCU Information Technology (IT) systems and processes.
Further OIG research revealed that in January 2009, NCCU agreed to repay the U.S.
Department of Education $1.1 million dollars for Federal loans taken out by students at an
unauthorized NCCU satellite campus operated in Georgia by a member of the NCCU Board of
Trustees. That satellite location was also not accredited at the time it issued university degrees
to the twenty-five (25) students. The satellite location was subsequently closed by the
University.

NSF-OIG engaged WithumSmith+Brown (WS+B) to perform a performance audit of Internal
Controls at NCCU (Audit) for the fiscal period July 1, 2008 to June 30, 2009 relating to NSF
awards. NCCU has nine (9) active grant awards amounting to $6.1 million as of June 2009. The
table below contains summary of the actual amount of NSF funds expended ($1.1M) during the
year ended June 30, 2009, per NCCU’s General Ledger Banner System:




During the planning phase of this Audit, we performed a Risk Assessment for the year ended
June 30, 2009 relating to NSF awards based on dollar materiality and control environment.
Accordingly we identified five significant processes-including IT systems as focus areas for the
Audit. Our audit team met with process owners and staff of all the significant processes to
document the processes in narratives and identify controls within the significant processes.
Mapping the controls to the various risks we developed Risk Control Matrices to assess the
design effectiveness. In all we identified 64 controls and classified 47 of them as Key Controls
for testing which included 13 IT controls.

Our review of North Carolina State Auditor’s work papers revealed that the control issues raised
in the 2006-07 and 2007-08 OMB A-133 reports of NCCU had minimal impact related to NSF
awards and on our 2008-09 Internal Control Audit. We reviewed the areas where weaknesses
were found that affected the NSF awards. Per the latest State Auditor’s report for Financial
Statement Audit OMB A-133 on NCCU for the period ended June, 30 2009, no internal control
deficiencies were noted during the annual audit.

Based on the procedures we performed during our Audit, we concluded that NCCU needs to
adhere to its policies and procedures and improve its internal controls in several areas
discussed below in order to more effectively account for, monitor, and administer its NSF
awards. As a result of the control deficiencies found, we identified $351,340 in questioned costs
(including questioned participant support costs) and $4,193 in questioned cost sharing arising in
budgeting, payroll management and other compliance areas, where internal controls of NCCU
should be improved. If NCCU does not address these compliance and internal control
weaknesses, similar problems may continue to occur undetected in the nine current and any
future NSF awards. Listed below are key findings from our internal control testing.

       o   Lack of Adequate Internal Control for Budgeting and Accounting, including
           Participant Support Costs. We noted that budget transfers were not always
           properly approved; budget vs. actual expenses are not adequately monitored; and
           that the NCCU Banner General Ledger (GL) system has no separate GL Code to
           capture participant support costs for either the budgeted and actual costs. Therefore,
           it is difficult for NCCU to monitor the actual outflow of expenses by cost category,
           especially for participant support costs, against NSF approved award terms. The
           share of budgeted participant support costs for all 9 active grants on a cumulative
           basis was $266,007. Therefore, we questioned the $266,007 due to the lack of
           supporting documentation that monitors participant costs by cost category and per
           award.

       o   University & Federal Travel Policies Not Followed. Our test procedures identified
           that travel expenses were reviewed by the NCCU travel department for State rules,
           but not for Federal government rules. NCCU follows NC Office of State Budget
           Management’s (OSBM) travel policies and procedures as its travel policy. During
           fiscal year ended June, 30 2009, the total travel expenses charged to NSF were
           $97,907 amounting to 8.7% of total award expenditures and estimated dollar amount
           of exceptions aggregated to $2,621. We questioned the $2,621 because these costs
           were in excess of allowable Federal lodging and per diem meal rates, were not
           properly approved, or were unsupported.

       o   Lack of Adequate Control Over Equipment Purchases. We noted two instances
           during our testing where NCCU purchased equipment that were not in compliance
           with the terms of the NSF award: i) 5 Global Positioning System (GPS) for robots
           ($34,975) and ii) 12 laptop computers ($10,496) aggregating to $45,471.
          NCCU shared its communications with NSF for these purchases but no specific
          approval from NSF was available to evidence compliance with NSF terms.
          Therefore, we questioned the $45,471 in equipment costs.

      o   Payroll and Fringe Benefits Procedures Not Followed. The payroll and fringe
          benefits testing identified multiple instances of payments which were not in
          accordance with the terms of the NSF approved awards. The aggregate of various
          such exceptions identified questionable costs of $10,852. In one instance we noted a
          discrepancy wherein an employee whose 100% of salary cost is charged to an NSF
          award, but spent only 70-80% of time on NSF activity as per NCCU time & effort
          form. Management explained that deliverables from the resource for NSF project
          were achieved though time spent was only 70-80%. We estimate that the amount of
          excess charged on account of this salary amounted to $6,300. Therefore, we
          questioned a total of $17,152 in payroll and fringe benefit costs.

      o   Inadequate Accounting and Reporting of Indirect Costs. We noted that the
          indirect cost basis (i.e. indirect cost base) in the Banner System has been incorrectly
          set up resulting in incorrect computation and allocation of indirect costs to the NSF
          Projects.

                             we questioned $20,089 in indirect costs


      o   Fixed Assets Physical Inventory Deficiencies. We noted that NCCU during its
          annual physical inventory count completely omitted one location. This did not result
          in questioned cost, however lack of proper controls can cause the loss or misuse of
          NSF supported assets.

      o   Lack of Compliance with NCCU’s Own IT General Controls. Our testing identified
          the following: i) Program changes were not approved by designated personnel; ii)
          Patches to critical servers were not applied on a timely basis; iii) User accounts of
          terminated employees were not completely disabled and were found to be partially
          active; iv) List of authorized users displayed at the data center was not current and
          did not match the system generated list of users having access to the data center.
          None of the above resulted in questioned costs related to NSF projects; however the
          lack of the above IT controls could compromise the systems that are used to
          administer the NSF projects.

      o   Inadequate Internal Controls Over NSF Grant Compliance Requirements for
          Cost Share and Conflict of Interest. NCCU has not complied with the 1% cost
          sharing requirement for the fiscal year ended June 30, 2009 and total cost sharing
          per our estimate for fiscal year 2009 for the three projects amounts to $4,193. Our
          inquiry and procedures indicated that the annual disclosure statements were not
          completed by the NCCU Principal Investigators for any of the awards under audit for
          fiscal year 2009.


To create an effective internal control environment over the NSF awards compliance process
and to address the exceptions from our testing, we recommend that NSF’s Director of the
Division of Institution and Award Support (DIAS) address and resolve the following
recommendations made to NCCU for its system of internal controls:
      o   Although NCCU has written policies and procedures for Contracts and Grants,
          NCCU management should exercise greater control over their budgetary process for
          monitoring NSF award costs and should adhere to their own policies and procedures
          regarding monitoring of budgetary activities. Also, NCCU should ensure proper
          recording and monitoring of participant support costs and determine the extent that
          participant support costs were incurred from the inception of the NSF awards.
          NCCU should adjust its claims to NSF accordingly. WS+B recommends creating
          separate GL accounts in Banner for participant support costs.

      o   NCCU travel expense review and approval procedures need to be strengthened with
          documentation in cases where deviations from federal travel guidelines are
          approved.

      o   NCCU management should reinforce to the Principal Investigator/ Co-Principal
          Investigator and Contracts and Grant Office to obtain appropriate approvals from
          NSF to ensure that assets are purchased in accordance with terms of the NSF
          approved award.

      o   NCCU management should strengthen its internal review to ensure that salary,
          including fringe benefits, charged to NSF Grants is per the NSF proposal/ award or
          NSF approval is obtained for additional costs. Further, Salary charged to NSF grants
          should be adjusted for work performed on other non NSF projects.

      o   NCCU should more closely monitor the rates and bases used for negotiated indirect
          cost agreements and that they are correctly applied to NSF awards. NCCU should
          review the indirect cost basis as defined in Banner system under various cost codes
          (for e.g. S001) and ensure it matches with the basis agreed with the Department of
          Health and Human Services (HHS). NCCU should review the indirect costs charged
          to all NSF awards not tested by the auditors and adjust its claims accordingly.

      o   NCCU should exercise greater care in their annual physical inventory process.

      o   As regarding the IT controls, NCCU should ensure that i) all program change
          requests are approved by authorized personnel before being implemented; ii) all
          critical servers are patched and kept updated as per the corporate policy; iii) the
          access for terminated employees is revoked on a timely manner from both the Active
          Directory and Banner System; and iv) the authorized users list displayed on the data
          center is updated to reflect the current list of authorized users.

      o   NCCU management should exercise greater control over the tracking and reporting
          of the required 1% statutory cost sharing. In addition, they should comply with NSF
          guidelines pertaining to conflict of interest documentation.


We brought all of the findings to the attention of NCCU management during and at the
conclusion of our audit for their response. A complete copy of NCCU’s response to the audit
can be found in Appendix A of this report. A brief summary of NCCU management’s response,
along with our comments is included after each finding in the section “Findings and
Recommendations.” An overall summary is provided in the section “Summary of NCCU
response and Auditor’s Comments.”
We have considered the additional documents and explanations provided by NCCU
Management and we recommend that the questioned costs and recommendations identified in
this report be further followed up and resolved by NSF management. The findings in this report
should not be closed until NSF has determined that all the recommendations have been
adequately addressed and the proposed corrective actions have been satisfactorily
implemented.
                                                        Contents
Introduction ..................................................................................................................... 1
Findings and Recommendations ..................................................................................... 3
   1) Lack of Procedures for Enforcing University’s Own Budgetary Policies .................. 3
   2) Lack of Adequate Internal Control for Budgeting and Accounting for Participant
       Support Costs ......................................................................................................... 6
   3) University And Federal Travel Policies Not Followed .............................................. 7
   4) Lack of Adequate Control over Equipment Purchases ............................................ 9
   5) Payroll and Fringe Benefits Procedures not Followed ........................................... 11
   6) Inadequate Accounting and Reporting of Indirect Costs........................................ 15
   7) Inadequate Compliance with University’s Own Background/ Reference Check
       Policies .................................................................................................................. 17
   8) Fixed Assets Physical Inventory Deficiencies ........................................................ 18
   9) Lack of Compliance with NCCU’s Own IT General Controls ................................. 20
   10) Inadequate Internal Controls over NSF Grant Compliance Requirements for Cost
        Share and Conflict of Interest .............................................................................. 23
Summary of NCCU Response and Auditors Comments .............................................. 25
Status of Prior Audit Findings ....................................................................................... 28
Appendix A: NCCU Responses to Audit Findings ......................................................... 41
Appendix B: Objectives, Scope and Methodology ......................................................... 49
Appendix C: Glossary of Acronyms ............................................................................... 52
How to Contact the Office of Inspector General ............................................................ 53
                                       Introduction
National Science Foundation (NSF) engaged WithumSmith+Brown (WS+B) to provide audit
support services in conducting a performance audit of internal controls (Audit) over financial
compliance, reporting, and administration of NSF awards by North Carolina Central University
(NCCU). This Audit is conducted for the Office of Audit (OA) of the National Science
Foundation, Office of Inspector General (NSF-OIG).

The overall objective of this performance audit is to assess the adequacy of NCCU's internal
control system for effectively accounting for, monitoring, and administering its' NSF awards in
compliance with Federal and NSF award requirements. WS+B shall also provide information to
identify accounting and administrative internal control weaknesses and to improve NCCU's
financial oversight and reporting of NSF award funds.

National Science Foundation
NSF is an independent Federal agency created by the National Science Foundation Act of 1950
(P.L. 810-507) with a goal to promote and advance scientific progress in the United States. NSF
funds research and education in science and engineering by awarding grants and contracts to
educational and research institutions in the United States. Through grants, cooperative
agreements, and contracts, NSF enters into relationships with non-Federal organizations to fund
research and education initiatives.

In support of the NSF mission, each year, the NSF-OIG conducts several audits to determine if
awardees have adequate internal controls in their financial and grants management systems
and whether they are in compliance with the financial and administrative terms and conditions of
their award agreement. These audits include grants, contracts and cooperative agreements that
are funded by NSF and awarded to (I) educational institutions, (2) state, local, and Federally-
recognized Indian tribal governments, (3) hospitals, (4) non-profit organizations, and (5) for-
profit organizations. These audits include internal control reviews, incurred costs, indirect cost
rates, pre-award proposals, and other specialty audits.

Issued audit reports include findings and recommendations, which are monitored for audit
resolution by the NSF Cost Analysis and Audit Resolution Branch (CAAR) of the Division of
Institution & Award Support (DIAS). DIAS also monitors the resolution of Office of Management
and Budget (OMB) Circular A-l33 Audit Reports that were issued by other contractors to
awardees for which NSF is the cognizant agency as well as for awardees whose cognizant
agency is not the NSF, but where NSF contributed substantial funds

North Carolina Central University
NCCU was established in 1910 and has an enrollment of approximately 9,000 students. NCCU
is one of sixteen institutions in the University of North Carolina system. It offers both
undergraduate and graduate programs of study. NCCU's Board of Trustees oversees its
operations at the institutional level. NCCU's Chancellor and other senior administrators manage
the university's day-to-day operations.

The NSF- OIG became aware, via a newspaper article in the Fayetteville Observer in February
2008, of instances of fraud committed by an NCCU official resulting in loss to Federal awards
(not NSF awards).The North Carolina Office of the State Auditor (OSA) received an anonymous
tip on its hotline and subsequently conducted an investigation which resulted in the prosecution
and conviction of that University official. Moreover, while on OSA's website, NSF- OIG noted a


                                                                                            Page 1
number of other OSA audits on NCCU, which identified other areas in which NCCU's internal
controls were inadequate.

Additionally OIG research revealed that in January 2009, NCCU agreed to repay the U.S.
Department of Education $1.1 million dollars for Federal loans taken out by students at an
unauthorized NCCU satellite campus operated in Georgia by a member of the NCCU Board of
Trustees. Only a select few individuals attended this private satellite location, which allowed for
unsanctioned discounted tuition. That satellite location was also not accredited at the time it
issued university degrees to the twenty-five (25) students. The satellite location was closed by
the University.

Finally, a financial statement audit under OMB Circular A-133 of NCCU issued by OSA on July
15, 2008 for the year ended June 30, 2007 reported material weaknesses. The material
weaknesses included IT system weaknesses such as the ability of multiple employees to log
into the system with the same user ID, and the ability of several employees to access forms and
security classes even though such access is not required for their jobs, with one of the security
classes being purchasing and receiving, in which one individual can create a requisition,
process a purchase order and verify the receipt of goods. The other material weaknesses cited
in this audit report included deficiencies in financial reporting (misclassifications, under and over
reporting of restricted cash by millions of dollars and the lack of preparation of accurate and
timely bank reconciliations).

The results of the OSA audits and research conducted by the NSF- OIG, led to the conclusion
that NCCU may still have weak internal controls and such an environment may put NSF award
funds at risk. NCCU currently has $6.1 million in nine (9) active grant awards. 48% of total NSF
awards from four (4) of the nine (9) awards totaling approximately $2.9 million, were issued to
NCCU by NSF from October 2008 through June 2009. As a result, NSF-OIG engaged WS+B to
perform a performance audit of internal controls at NCCU for the fiscal year July 1, 2008 to June
30, 2009.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable
basis for our findings and conclusions based on our audit objectives.




                                                                                               Page 2
                     Findings and Recommendations
Following is a list of project numbers used in this report and corresponding NSF project
numbers for reference purposes:

            NCCU Project    Corresponding NSF
             Reference      Project Reference
              554308             0411529
              554309             0457246
              554311             0607961
              554312             0625092
              554310             0631347
              554314             0653424
              554313             0716348
              554317             0811744
              554316             0833184



Finding No. 1) Lack of Procedures for Enforcing University’s Own Budgetary Policies

Although NCCU has written policies and procedures for Contracts and Grants, covering various
processes, including Payroll, Compliance, Time and Effort, and Purchasing, we noted during our
Internal Control testing the following exceptions:

       •   Process: Contracts and Grants - Budget Transfers Not Properly Approved

           Whenever a budget transfer is required, per internal NCCU guidelines a Budget
           Transfer Form is prepared which includes details such as Grant Number, “Transfer
           From” Account Code, Amount, “Transfer To” Account Code and Justification for
           Transferring the Budget dollars. If a budget needs to be revised or if the budget
           needs to be transferred from restricted account codes (e.g. Participant Support
           Costs), prior approval from NSF is required. In addition, when budget transfers
           exceed 25% of the respective account balance at the time of transfer, NSF approval
           is sought. The Budget Transfer Form needs to be approved by the PI and his/her
           Supervisor. The Budget Transfer Form is then forwarded to the Office of Sponsored
           Research (OSRP) team for review and approval. Once approved by OSRP, the Form
           is forwarded to the Contracts and Grants team. The Director of Contracts and Grants
           reviews and approves transfers.

           We noted that NCCU had inadequate controls with respect to monitoring their budget
           transfers of NSF award costs resulting in non compliance with its own internal
           policies and procedures.

           We tested 10 samples for budget transfers and noted a total of six exceptions as
           follows:




                                                                                        Page 3
       For one of the sample budget transfers (Project 554313), no NSF approval was
       obtained when $1,507 was transferred out of budgeted Participant Support Costs
       into Travel Costs.

       In five of the sampled budget transfers made by NCCU, $35,676 in aggregate did
       not follow the internal NCCU guidelines of seeking NSF approval when the
       amount transferred exceeds 25% of the respective account balance at the time of
       transfer.

    The first exception was questioned as part of finding no. 2. The remaining exceptions
    did not result in questioned costs because the auditors found that, even though
    NCCU’s policy to obtain NSF approval was not followed, the expenses were related
    to the NSF Projects.

•   Process: Contracts and Grants - FFR Reporting - Budget vs. Actual – Expenses are
    not Adequately Monitored

    Per NCCU’s current process, at the time of claim for reimbursement from NSF for
    actual expenses, the Director C&G reviews the FFR report online along with related
    supporting documents for the various expenses per the Banner GL prepared by the
    Grant Accountant. As part of this process, the Director of Contracts & Grants verifies
    that total actual expenses do not exceed total budgeted expense for each award.
    Once the Director of Contracts and Grants is satisfied on review of the supporting
    documents including budget vs. actual, she approves the report online and prints the
    report and signs the first page of the report as evidence of her review.

    Administrative Requirements for Grants and Agreements (2 CFR 215) with
    Institutions of Higher Education, Hospitals, and Other Non-Profit Organizations,
    Subpart C, Section .51(a) states “Recipients are responsible for managing and
    monitoring each project, program, subaward, function or activity supported by the
    award.”

    We noted that NCCU is not adequately monitoring it’s budgeted vs. actual expenses
    resulting in overrun in costs in line items and/or total NSF budgeted costs.

    We tested for one calendar quarter eleven (11) samples consisting of nine (9) active
    and two (2) closed awards and noticed budget vs. actual cost variances as follows:

       a) For three (3) of the grants (554310, 554312 & 554314), we noted that the
          actual fringe benefit amounts charged to the grants were higher than the
          budget amount by $3,851 (554310 - $ 1,729; 554312 - $ 1,419; 554314 - $
          703). In two grants (554312 and 554314) the total actual expense did not
          exceed the NSF approved amount, however the total actual expenses ($
          78,297) exceeded the budgeted amount ($ 75,000) by $3,297 for one grant
          (554310), The above exception results in questioned costs totaling $3,297
          related to the NSF Projects as the total actual amount of $78,297 exceeded
          the NSF total award of $75,000 for project 554310. On inquiry, NCCU
          informed us that the amount of $3,297 was subsequently refunded by way of
          adjustment in 2009-10 FFR reporting.




                                                                                    Page 4
              b) For two (2) of the grants (554309 and 554312), we noted that the actual
                 salaries charged to the grants were higher than the budget amounts by
                 approximately $ 1,969 (for 554309 - $1,096; 554312 - $873).

                  The above exception did not result in questioned costs related to the NSF
                  Projects because total actual expense for these grants did not exceed the
                  total budgeted amount.


              c) For two (2) of the grants (554309 & 554310), we noted that the actual
                 scholarships / fellowships amounts charged to the grants were higher than
                 the budget amount by $2,143 (554309 - $408; 554310 - $1,735).

                  The above exception did not result in questioned costs related to the NSF
                  Projects because total actual expense for these grants did not exceed the
                  total budgeted amount.

Recommendation No. 1: We recommend that the Director of NSF’s Division of Institution and
Award Support address and resolve the following recommendations for implementation by
NCCU:

       1.1 NCCU management should exercise greater control with respect to their budgetary
           controls over NSF award costs and adhere to their own policies and procedures
           regarding monitoring of budgetary activities. To facilitate review and approval of
           budget transfers, WS+B recommends enhancing the Budget Transfer Form and
           including the Total Budget Amount and percentage (%) of transfer, which would
           remind reviewer / approver to seek NSF approval whenever transfer exceeds 25% of
           budget line item. Similarly a check box stating whether the amounts are transferred
           from restricted line items like Participant Support Costs should be included on the
           Form to enable reviewer to seek NSF approval before approving such transfer.

       1.2 Banner should be configured to put on hold all actual amounts that exceeded the
           Budget and to be approved / rejected by Authorized Individual through Workflow
           documenting the reason for such approval / rejection.

NCCU Response to Finding No. 1:

In North Carolina Central University’s written policy, there is no mention of a requirement to
seek prior approval from the awarding agency for budget transfers exceeding 25% of the
respective account balance at the time of transfer. Apparently, the former Director of Sponsored
Research informed WSB of an NCCU policy of seeking prior approval from the awarding agency
for budget transfers exceeding 25% of the respective account balance at the time of transfer,
which would result in constant seeking of approval if based on an account balance.

The $1,507 transfer out of budgeted Participant Support Costs into Travel Costs was made to
comply with state reporting guidelines. For grant 554310, the applicable scholarship was
adjusted $3,297 using indirect cost funds during Fiscal Year 2010. Refer to Appendix A for
NCCU’s complete response.




                                                                                          Page 5
WS+B Response to NCCU Response:
The control activity of seeking NSF approval by NCCU for budget transfers exceeding 25% of a
cost line was disclosed to us by the NCCU process owners, including the Director, Office of
Sponsored Research and Contracts & Grants during walkthrough inquiry. Following this, the
control activity was included for testing and the resulting failure was shared with NCCU
Management. NCCU process owners agreed with test results and agreed to implement a more
robust process to strengthen the operation of the control. None of the other findings are part of
questioned costs in the report.


Finding No. 2) Lack of Adequate Internal Control for Budgeting and Accounting for
Participant Support Costs

       •   Process: Contracts and Grants – Participant Support Costs not Separately Identified
           or Monitored in Compliance with NSF Award Terms:

           Per NCCU’s current process, the Director of the Office of Sponsored Research
           Programs (OSRP) along with the Principal Investigator (PI) summarize the NSF
           approved budget data into various cost categories on the “Budget Allocation Form”
           and assign the respective General Ledger (GL) Code to each individual line item.
           The data per the form is then entered into the Banner – GL system. The Director of
           Contracts and Grants reviews and approves this data by signing on the Banner
           Screen Shot containing the details of the NSF award which is set up to ensure
           completeness and accuracy.

           We noted that the Banner GL system has no separate GL Code for Participant
           Support Costs to capture the budgeted and actual costs separately thereby making it
           difficult to monitor the budget vs. actual dollar amounts and ensure that all participant
           support costs required are actually incurred on the NSF awards.

           The share of budgeted Participant Support Costs for all 9 active grants on a
           cumulative basis was $266,007.

           The NSF Grant General Conditions (GC-1), Article 7 states “Grantee organizations
           must account for participant support costs separately. Funds provided for participant
           support may not be used for other categories of expense without the specific prior
           written approval of the cognizant NSF Program Officer“.

           We have included in the questioned costs, an amount of $266,007 representing
           participant support costs on a cumulative basis, because NCCU did not have an
           internal system in place to identify and monitor that the actual participant support
           costs incurred for the various NSF awards are in compliance with the individual
           award terms.

Recommendation No. 2: We recommend that the Director of NSF’s Division of Institution and
Award Support address and resolve the following recommendations for implementation by
NCCU:

       2.1 To ensure proper monitoring of Participant Support Costs, WS+B recommends
           creating in Banner separate GL accounts for Participant Support Costs.



                                                                                              Page 6
       2.2 We also recommend that NCCU determine the extent that participant support costs
           were incurred from the inception of the NSF awards and adjust its claims accordingly
           based on actuals spent by NCCU on the individual awards and the amount approved
           by NSF for each award.

NCCU Response to Finding No. 2:

From the inception date of all NSF awards through 6/30/09, NCCU’s accounting records and
supporting documentation indicate $215,853 of participant support cost expenditures. For any
disbursement, North Carolina Central University maintains supporting documentation for our
annual financial audit scrutiny. We have now modified our general ledger to make it easier for
outside parties to identify participant support costs. The revised general ledger descriptions will
enable NCCU to improve compliance with participant support cost requirements. Refer to
Appendix A for NCCU’s complete response.


WS+B Response to NCCU Response:

Out of a total budget of participant support costs of $266,007, NCCU Management provided on
2/26/11 participant cost details for only $215,853. No explanation was provided by NCCU for
the remaining balance of participant support costs in the amount of $50,154. Further, NCCU
Management provided a break down by cost category and did not include the amount spent
against individual awards. In the absence of this information by individual award, and
considering we have not done any additional procedures on the new information provided by
NCCU Management, we could not confirm NCCU’s adequacy of internal control for tracking
participant cost per NSF award terms or that the $266,007 were all the participant support costs
required and incurred from the inception of the NSF awards. The revisions to General Ledger
coding could help to track participant support cost going forward. Nonetheless, we retained the
entire amount of budgeted participant cost as questioned cost in this report and recommend that
NSF Management pursue this finding as an item for audit resolution.

Finding No. 3) University And Federal Travel Policies Not Followed

       •   Process: Contracts and Grants – Travel Costs Not Reviewed for Compliance with
           Federal Regulations

           The NCCU Project team submits its request for pre-approval to travel via a “Request
           for Travel and Travel Authorization Form” which is reviewed and approved by the PI
           and Contracts and Grants Office for pre-approval. As requests are submitted, the
           Contracts and Grants Office reviews the travel request and if allowable per the NSF
           award approves the requests and forwards them to the Travel office. Actual travel
           expenses along with the supporting documents are reviewed by the travel office
           staff. If actual travel costs differ from the prior approval then the details are sent to
           the Department Head / PI / Director Contracts and Grants for approval.

           Our test procedures identified that travel expenses were reviewed by the NCCU
           travel department for State government rules, however detail evidence of compliance
           with Federal government rules was not available specifically for lodging and meals.
           Therefore, there is no assurance that all travel costs charged on NSF awards are
           allowable.



                                                                                              Page 7
          The NSF Grant General Conditions (GC-1), Article 10 states “expenses for
          transportation, lodging, subsistence and related items incurred by project personnel
          and by outside consultants employed on the project who are in travel status on
          business related to an NSF-supported project are allowable as prescribed in the
          governing cost principles”.

          During fiscal year 2009, the total travel expenses charged to NSF was $97,907 with
          respect to all of the 9 active grants amounting to 8.7% of total award expenditures
          $1,119,675. We tested 25 samples whose total expense aggregated to $26,159.
          WS+B noted a total of seven (7) exceptions out of twenty five (25) samples that were
          tested and per our estimate, the dollar amount of exceptions aggregate to $2,621.

          WS+B observed that three (3) out of nine (9) samples that were tested for lodging
          expenses, the lodging charges were more than the Federal allowed limits and were
          pre-approved by the PI and the Contracts and Grants Office. Subsequently these
          same charges were also approved by the Travel department and reimbursed to the
          employee. The Federal limits allowed for two of the samples (I0066133 & I0066498)
          were at $141 per night but actual lodging expenses were incurred at $221 on 1 night
          and $189 for the remaining nights. For the remaining sample (I0075349) the Federal
          limit was $110 per night but actual lodging expenses were incurred at $314 for the
          first night and $144 for the remaining nights.

          For three (3) samples out of twenty five (25) samples that were tested for travel
          expenses, WS+B observed that the actual amounts were higher than the pre-
          approved amounts; however, there were no approvals obtained from Contracts and
          Grants Office or respective department heads. In sample (I0077580) the pre-
          approved amount was exceeded by $161, for sample (I0077579) the pre-approved
          amount was exceeded by $250 and for sample I0075349 the pre-approved amount
          was exceeded by $631.

          For one (1) sample (I0077649) out of seven (7) samples that were tested for meal
          per diem expense, we observed that on one of the days of travel one hundred
          percent (100%) of the per diem was charged instead of seventy five percent (75%),
          approximately $24 more than the amount allowed under Federal limits.

          For one (1) sample (I0058265) out of twenty five (25) samples that were tested for
          travel expenses, the amount of expense actually claimed ($ 2,332) did not match
          with the supporting receipts ($ 2,143), a difference of $188.

          The above exceptions results in questioned costs totaling $2,621 related to the NSF
          Projects.

Recommendation No. 3: We recommend that the Director of NSF’s Division of Institution and
Award Support address and resolve the following recommendations for implementation by
NCCU:

      3.1 Travel expenses were reviewed by the NCCU travel department for compliance with
          State government travel rules, however WS+B recommends that the travel
          department staff be trained on Federal Cost Guidelines applicable for travel.



                                                                                        Page 8
       3.2 To facilitate review of travel expenses – WS+B recommends to enhance Travel Pre-
           Request Form and Travel Reimbursement Form, by including Federal limits for
           Lodging, Per-Diem, Air Travel (US Carrier) and Ground Travel (Mileage) on the
           Travel Form. If the approval was provided for more than the allowable limit then
           reason for such exceptions must be documented by Approver on the Form.

       3.3 NCCU should adhere to its requirement to approve actual travel that differs from
          prior approved travel and ensure that the amount claimed matches the supporting
          receipts.

NCCU Response to Finding No. 3:

NCCU follows NC Office of State Budget Management’s (OSBM) policies and procedures which
state that OSBM policies for travel take precedence over federal guidelines governing the use of
federal grant funds. The $2,621 of expenses was properly supported, and properly approved
per OSBM guidelines and should therefore not be considered exceptions or questioned costs.
NCCU will continue to use state rates as required by NC OSBM and allowed by OMB circular A-
21. Refer to Appendix A for NCCU’s response.


WS+B Response to NCCU Response:

Since NCCU is following State rules and plans to continue to do so, we recommend that NSF
Management decide and confirm whether the NCCU policy of following State Rules for Travel
Policy is allowable for its federal NSF awards.

Finding No. 4) Lack of Adequate Control over Equipment Purchases

       •   Process: Purchasing and Disbursements - Equipment not Authorized:

           Currently, as per NCCU procedures to purchase a fixed asset included in NSF grant
           related expenditures, the Director of Contracts and Grants or the Grant Accountant
           will verify that the purchase request is within budget and approved by the Principal
           Investigator (PI) or designee, and as per the terms of the NSF grant award and other
           Federal guidelines as evidenced by online approval. The Purchasing department
           follows the internal NCCU procedure to buy the items for the approved request.

           We noted that purchases of equipment were not adequately reviewed for allowability
           with respect to the terms of the NSF award/ guidelines resulting in non-compliance to
           the NSF award.

           Total equipment and supplies purchases for the fiscal year 2009 for all the active
           grants amounted to $202,736. Our testing consisted of 17 samples ($101,898) and
           the details of the two exceptions are as follows:

              a) NSF Grant # 554317

                  NCCU purchased $ 93,617 worth of equipment from "Mobile Robots" via
                  Purchase Order number P0019616 dated February 5, 2009. The equipment
                  consisted of 5 pre-pack P3-AT robots for a total of $ 27,995, 5 GPS systems
                  (related to the robots) for a total of $ 34,975 and the balance were applicable


                                                                                           Page 9
                 accessories. Upon review of the 554317 proposal, it was noted that NCCU
                 was allowed to purchase $ 93,500 worth of equipment which included robots,
                 accessories and 20 computers. There was no mention of GPS systems.

                 Specific approval from NSF was not obtained when NCCU bought 5 GPS
                 systems for the robots instead of the 20 computers.

                 Therefore, we questioned $34,975 in equipment costs; since the project
                 proposal did not include GPS Robots. The allowability of this amount
                 ($34,975) needs to be confirmed by NSF.

             b) NSF Grant # 554308

                 NCCU made the following laptop purchases in fiscal year 2009:




                 Per the award proposals, NCCU was allowed to purchase only 20 laptops
                 each fiscal year of grant. Further, upon our physical verification of the
                 laptops, we noted that 12 laptops were available in the department and not
                 issued to the students as proposed by NCCU.


                 dated May 4, 2007 giving permission to add participants to the program.
                 However, the number of students finally enrolled in the program was lower
                 which resulted in reduced scope of the project. This warrants a specific
                 approval from NSF for excess laptops purchased and retained with NCCU
                 and not issued to students.

                 The above exception results in questioned costs totaling $10,496 (12 laptops
                 @ $874) related to the NSF Projects.

Recommendation No. 4: We recommend that the Director of NSF’s Division of Institution and
Award Support address and resolve the following recommendations for implementation by
NCCU:

      4.1 NCCU management should exercise greater control with respect to their budgetary
          controls over NSF award costs and adhere to their own policies and procedures
          regarding monitoring of budgetary activities. NCCU should obtain NSF approval for
          major changes in equipment purchase agreements.

      4.2 NCCU management should reinforce to the PI/ Co-PI and Contract and Grant Office
          to obtain appropriate approvals from NSF to ensure that assets are purchased in
          accordance with the terms of the NSF approved award. NSF approval should be
          obtained and documented when deviations from the NSF award occurs.




                                                                                      Page 10
NCCU Response to Finding No. 4:

Regarding the GPS systems, the PI stated the proposal was only an initial estimate and actual
cost and configuration of the equipment at the time of order was different. The $34,975 should
therefore not be questioned costs

Regarding the laptops, the PI responsible for the grant indicated that 7 of the 12 laptops in
question were ordered for persons who decided not to participate in the 2009 Summer
Enrichment Program at the last minute and the additional laptops were used to replace
students’ computers that either crashed or had damage that usually took longer than a week to
repair. In addition, the PI indicated all of the laptops in question were used by Initiatives for
Transforming and Sustaining Science, Technology, Engineering and Mathematics (ISSTEM)
Program students who were STEM majors. The $10,496 should therefore not be questioned
costs.

In both cases, award interpretation flexibility as circumstances changed is the issue rather than
one of budgetary controls. NSF approval was not sought based on award interpretation
flexibility. Refer to Appendix A for NCCU’s response.

WS+B Response to NCCU Response:

We recommend that NSF Management confirm whether the cost incurred by NCCU without
specific NSF approval for the purchase of GPS Robots and additional computers - both not
forming part of the original NSF award, is allowable under NCCU’s award terms and whether or
not such costs should be treated as questionable costs.

Finding No. 5) Payroll and Fringe Benefits Procedures not Followed

       •   Process: Payroll and Fringe Benefits Claimed in Excess of NSF Approved Amounts
           are Not Properly Adjusted or Approved

           Per NCCU’s current process all employees working on the NSF awards are
           approved (electronic or wet signature) by the following (as applicable): Department
           Head or Principal Investigator, Dean/Chair, Vice Chancellor, Comptroller and
           Director of Contracts and Grants. Comptroller’s approval is not required for
           Temporary hourly employees. The Director of Contracts and Grants or the Grant
           Accountant review the Employment Contracts, “Recommendation to Employ” form,
           “Work Authorization” form or a similar form for appropriate signatures and they verify
           if the employee payroll expense can be charged to the grant per the NSF grant
           award and other Federal guidelines and they sign off on the form to evidence their
           review. Any salary changes are approved by same process above and also by State
           authorities, where applicable.

           [2 CFR 215] Administrative Requirements for Grants and Agreements with
           Institutions of Higher Education, Hospitals, and Other Non-Profit Organizations,
           Subpart C, Section .51(a) states “Recipients are responsible for managing and
           monitoring each project, program, sub award, function or activity supported by the
           award.”




                                                                                          Page 11
1) Salaries in Excess of NSF Approved Amounts

   Total salary including fringe benefits for the NCCU staff that were charged to
   NSF awards for fiscal year 2009 was $390,925. Out of a total of 20 samples we
   tested for the NCCU staff for salary the following 3 exceptions were noted:

   a) Program Manager (NSF Grant

      Salary increased from $ 52,000 to $ 63,000 (21%) in fiscal year 2009 as a
      result of the employee taking a position as Program Manager. Per proposal
      justification approved by NSF, the allowed annual salary increase was 3%.
      Further, the $63,000 paid for the Program Manager appears to be in excess
      of the proposal limits for this position.

      No document evidencing NSF approval for higher salary for the Program
      Manager position was available.

      The above exception results in questioned costs estimated to be $5,165
      related to the NSF Projects.

   b) Co-PI (NSF Grant            )

      An employment contract was in place for $ 12,000 for the period 5/16/08 -
      7/15/08 for the employee. NSF Approved Proposal allowed for 2 calendar
      months for a total sum of $ 10,000. Project got extended by a no cost
      extension until 2010. Per NCCU, the employee was paid $ 12,000 as follows:
      $2,000 in May 2008, two $4,000 payments in June 2008, and $ 2,000 in July
      2008 resulting in excess of the NSF approved proposal by $ 2,000 ($ 12,000
      - $ 10,000).

      The above exception results in questioned costs totaling $2,000 related to the
      NSF Projects.

   c) Post Doctoral (NSF Grant

      The salary approved for Post Doctoral Students is $ 36,016 for 12 months.
      The Post Doctoral employee has an employment contract for $ 39,000 for 12
      months resulting in excess payment of $ 2,984 which NCCU explained to be
      for fringe benefits.

      The above exception results in questioned costs totaling $2,984 related to the
      NSF Projects.

2) Fringe Benefits in Excess of NSF Approved Amounts

      Total fringe benefits for fiscal year 2009 charged to NSF projects amounted
      to $38,747. WS+B reviewed the reconciliation of the benefits statement with
      the eligibility per the NSF award for all the active NSF projects and noted an
      exception as follows:




                                                                             Page 12
       Project 554314 was not budgeted per NSF award for fringe benefits but a
       sum of $703 was paid and charged to the NSF grant. This was not an
       allowable expenditure per the NSF award.

       The above exception results in questioned costs totaling $703 related to the
       NSF Projects.

3) Time & Effort Not Properly Adjusted or Approved

       The “Time and Effort Report” form containing details such as Grant Number,
       Percentage of Effort, Distribution of Effort and the Month are completed by
       respective personnel for their labor effort and forwarded to the PI for
       approval. On a monthly basis, the PI reviews the time and effort report form,
       certifies the effort by sign-off on the form, and forwards the forms to Contracts
       and Grants Office. Time and Effort of PI’s is reviewed and certified by their
       respective Supervisors.

       We noted that controls surrounding the review and approval of “Time and
       Effort Report” form needed to be reinforced and appropriate adjustments
       made (if required) to prevent unallowable expenses being charged to NSF
       awards.

       We tested 17 employees (33 Time & Effort Forms) and noted the following
       exceptions:

          a) Program Manager (NSF Grant # 554308)

              On review of the employee’s Time and Effort forms from July 2008 to
              June 2009, it was noted that from July 2008 to December 2008, the
              employee spent 100% of his time on NSF Grant 554308. From
              January 2009 to June 2009, he spent 70% to 80% of his time on
              554308 and the balance on other non-NSF projects. However his
              entire salary of $ 63,000 per year (from September 2008 onward) was
              charged to NSF and no salary adjustment was made for the months of
              January 2009 to June 2009.

              The above exception results in questioned costs estimated to be
              $6,300 related to the NSF projects.

          b) Post Doc (NSF Grant # 554313)

              On review of the July 2008 Time and Effort Form, it was noted that the
              form did not have Director of Contracts and Grants or Grant
              Accountant review and signoff.

              The above exception did not result in questioned costs related to the
              NSF Projects because we confirmed with the PI that the costs were
              accurate even though the form was not approved.




                                                                                 Page 13
Recommendation No. 5: We recommend that the Director of NSF’s Division of Institution and
Award Support address and resolve the following recommendations for implementation by
NCCU:

       5.1 NCCU management should exercise greater control with respect to their budgetary
           controls over NSF award costs and adhere to their own policies and procedures
           regarding monitoring of budgetary activities. NCCU should obtain NSF approval for
           payroll costs in excess of the NSF award terms.

       5.2 NCCU management should ensure that Salary including benefits charged to NSF
           Grant is per the NSF proposal/ award. Further, Salary charged to NSF Grants should
           be adjusted for work performed on other non NSF projects.

       5.3 NCCU management should reinforce to the Contracts and Grant Office the
           importance of reviewing the employee’s Time and Effort Forms per NCCU
           guidelines.


NCCU Response to Finding No 5:

It is the practice of North Carolina Central University to seek approval from any granting agency
to pay excess salaries. One week prior to the start of program, the PI for the ISSTEM Program
had to appoint a new program manager as the former manager abruptly resigned. Given the
lateness of the resignation, an email notification was sent to NSF of this change. The new
program manager was previously the Instructional Technology and Banner Specialist to
ISSTEM. A stipend of $10,167 was added to his prior salary to match the salary of the former
program manager. The former program manager’s position had previously been approved by
NSF.

The finding indicated that an employee only spent 70 – 80% of their time on NSF activity, but
100% of the salary was charged to an NSF award. The employee worked full-time on the NSF
activity and additional time after hours on a nonrelated project. As more than 100% effort
cannot be shown on the time and effort form, the 20 – 30% was reported as a means to
document the overtime on the nonrelated activity. As an exempt employee from the State
Personnel Act and the Federal Fair Labor Standards Act pertaining to overtime compensation,
the employee did not receive additional compensation for the overtime and was merely trying to
show the 20 – 30% as in kind. Going forward, we will address how overtime effort for
employees is captured.

Lastly, Management did not state that deliverables for the NSF project were achieved by the
employee expending 70 – 80% of his effort on the project, as reported in the Executive
Summary. Therefore, the $6,300 is not an excess charge.

WS+B Response to NCCU Response:

NCCU did not provide us with a copy of the email notification it sent to NSF regarding
appointment of a new program manager. Also, NCCU did not provide evidence showing the
approval from NSF for the former program manager position’s salary. Further, while we
understand that the employee in question spent more than 100% of his time during the contract
period working on projects, it appears that NCCU Management normalized his total time to
100% and proportionally included 70-80% towards the NSF project, with the balance towards


                                                                                          Page 14
other Projects. Therefore, our question still remains unanswered as to why NCCU charged the
entire salary cost of this employee to the NSF award. We therefore retain the entire salary
amount as questioned cost and suggest NSF address this issue as part of the audit resolution.

Finding No. 6): Inadequate Accounting and Reporting of Indirect Costs

       •   Process: Contracts and Grants - Indirect Costs Incorrectly Calculated and Claimed

           NCCU has a negotiated agreement with the US Department of Health and Human
           Services (HHS) as their cognizant agency for indirect cost rate determination. The
           rates per the negotiated agreement are to be utilized for each Federal award project
           including NSF. The Director of the Office of Sponsored Research negotiates the
           rates with HHS and the approved indirect cost rates table is provided to the
           Contracts and Grants Office to load into the Banner system. The Director of
           Contracts and Grants reviews the NSF proposal and where applicable approves the
           indirect rates to be utilized on the award in the Banner System (online) to be applied
           to the various projects. Based upon the set-up criteria the indirect costs are
           computed by the Banner system for the project. We noted during testing that indirect
           cost basis in the Banner System has been incorrectly set up resulting in incorrect
           computation and allocation of indirect costs to the NSF Projects.




                                                                                          Page 15
                                             resulted in questioning a net $20,089 in indirect
                 cost charges




Recommendation No. 6: We recommend that the Director of NSF’s Division of Institution and
Award Support address and resolve the following recommendations for implementation by
NCCU:

       6.1 NCCU should more closely monitor the rates and bases per their negotiated indirect
           cost agreement when applying these rates and bases to their NSF awards.

       6.2 NCCU should review indirect cost basis as defined in Banner system under various
           cost codes (for e.g. S001) and ensure it matches with the basis agreed with HHS.

       6.3 In a Multi-Year contract, NCCU should ensure any new rates agreed with HHS are
           brought to the notice of NSF and based on NSF approval apply the revised rates.

       6.4 NCCU should determine if it correctly charged indirect costs during the duration of
           the awards for the remaining five NSF awards not tested and make adjustments to
           its claims accordingly.

NCCU Response to Finding No. 6:

NCCU concurs with finding no. 6.




                                                                                       Page 16
WS+B Response to NCCU Response:

No change in questioned costs as noted in the finding.


Finding No. 7) Inadequate Compliance with University’s Own Background / Reference
Check Policies and No Tracking of Sick Leave for Temporary Employees Performed

       •   Process: Payroll and Fringe Benefits – New Hires Lacked Background Reference
           and Degree Certification Check

           Any new hire occurs only after a process of interviewing of potential candidates and
           approvals from various NCCU authorities (PI, Dean, Comptroller and Director of
           Contracts and Grants). A background/reference check is performed by the
           respective departments for EPA (Exempt from State Personnel Act) employees while
           for others it is performed by HR on new hires before offer of employment. The
           Director of Contracts and Grants or the Grant Accountant will verify the budget code,
           availability of funds, proper signatures and whether the position is allowed per the
           NSF grant award in conjunction with other applicable Federal guidelines and signoff
           on the “Recommendation for Personnel Action” form to evidence the review. During
           fiscal year 2009, the Payroll Manager would review the payroll calculation
           spreadsheet for the mid-month cycle along with supporting documentation on a
           periodic basis and sign off to evidence his review.

           We noted that for one new hire as a Research Associate (new hire in fiscal year
           2009, NSF Grant 554316), there was no evidence provided to us of a background /
           reference check and a degree certificate check performed by NCCU. The lack of
           proper background reference and degree checks could allow unqualified or
           inappropriate staff to be assigned and charged to NSF projects.

       •   No Tracking of Sick Leave for certain Employees Performed

           It was also observed that the NSF award employees (non-administrative), Post
           Doctorate Students, Graduate Assistants and Students receiving Stipends do not
           accrue leave and thus no tracking of sick or vacation leave is done. Thus, a risk exist
           that salary reductions will not be made in case an employee takes significant leave.
           (Note: Temporary employees paid on an hourly basis do not require sick or vacation
           leave tracking since they are paid only for the actual hours worked.)

Recommendation No. 7: We recommend that the Director of NSF’s Division of Institution and
Award Support address and resolve the following recommendations for implementation by
NCCU:

       7.1 NCCU Management should reinforce with staff that background / reference checks,
           along with degree certificate checks, be performed as required and that proper
           documentation relating to these checks is maintained.

       7.2 NCCU Management should centralize the performance of the background /
           reference check for all employees. These checks can be performed by HR
           department for all new hires and relevant documents be sent to Director of Contracts
           and Grants for her records.


                                                                                           Page 17
       7.3 NCCU Management should put a mechanism in place to track Sick / Vacation leave
           taken by an employee [such as NSF award employees (non-administrative), Post
           Doctorate Students, Graduate Assistants and Students receiving Stipends] for a
           significant period of time. PI should inform the HR department if such an event takes
           place and ensure that appropriate payroll deductions are made.

NCCU Response to Finding No. 7:

Background checks, reference checks and degree certificate checks are performed for
employees subject to the State Personnel Act. Reference checks and degree certificate checks
are performed for employees exempt from the State Personnel Act. Proper documentation is
maintained for these checks. One exception was found in WSB’s sample of approximately 12
employees. Each hiring department performs reference checks and forwards the results to a
central location - Human Resources. Human Resources reviews the information and requests
changes and additional information from the hiring department as needed. Background checks
for employees subject to the State Personnel Act is a centralized process performed by Human
Resources. As this information is centrally located in Human Resources, NCCU does not see
the need for it to be forwarded to the Director of Contracts & Grants.

NCCU tracks sick / vacation leave based on state employee class. Certain classes of state
employees are not eligible to earn leave; it is therefore not tracked for those types of
employees. Non-administrative exempt from the State Personnel Act employees, Post
Doctorate Students, Graduate Assistants and Students receiving work based stipends do not
earn leave. They are all compensated based on the completion of the work product or
deliverable and not based on hours worked. The concept is similar to that of someone
performing professional services. They may quote a price for completing a certain task. If they
complete the task in 40 hours, 90 hours or 30 hours, the compensation is the same per the
terms of the agreement. If the work product or deliverable isn’t completed, the department
would inform Contracts & Grants and/or Human Resources. The aforementioned employee
classes’ pay would then be adjusted as instructed by the department.

WS+B Response to NCCU Response:

Regardless of where the checks are performed, NCCU must address the need to maintain
copies of the background, reference and degree certificate checks (as applicable) and related
documentation. Tracking of sick/ vacation leave should be performed by NCCU for all
categories of employees, but especially for those employees who work on NSF and federal
awards. It is our conclusion that NSF management is in the best position to decide if
compensation based on a deliverable is allowable. Note that there were no questioned costs
related to this finding.



Finding No. 8) Fixed Assets Physical Inventory Deficiencies

       •   Process: Fixed Asset – Annual Physical Verification - Missed a Department During
           the Inventory Count and Failed to Report a Missing Item as Stolen

           A physical inventory of capitalized fixed assets as well as inventory items is taken
           annually. As a policy, someone independent of the custody of the asset performs the


                                                                                         Page 18
          count. For the year ended June 30, 2009 NCCU contracted with West Staff Inc. to
          perform an annual physical count of fixed assets. Prior to beginning the physical
          count a schedule is prepared listing Building Code, Building Name, Date and time
          when the counts will be performed. On an annual basis, the Reconciliation / Fixed
          Asset Accountant reviews the physical count results as uploaded in the system and
          reviews the list of missing assets. Employees who discover that property has been
          stolen are required to report the theft to their supervisor. The supervisor is required
          to notify both Campus Police and the Fixed Asset Office. The stolen assets will be
          retired in the Banner system through Journal Entry.

          During testing we noted that NCCU due to oversight failed to include all the locations
          during physical count procedure.

          We tested the physical count documents performed during May 2009 and noted the
          following exceptions:

          a) The asset with tag #19014 was not included in physical inventory count. Upon
             inquiry, the Fixed Asset Accountant informed us that one of the locations (Biology
             Building) was completely omitted from the Fixed Asset Count. After our inquiry
             the inventory of the assets at the Biology Building was performed by the Fixed
             Asset Team to verify their existence. The Fixed Asset Team provided us with
             pictures of the sampled asset as evidence of its existence and we physically
             verified the existence of the asset.

          There was one laptop item noted as stolen from our physical verification of five
          items, in the physical count results, whose original purchase price is $965. Upon
          inquiry we were informed that the student could not return the laptop as it was stolen.
          No report evidencing the filing of complaint with the police for the stolen laptop was
          provided.
          The above exceptions results in questioned costs estimated to be $965 related to the
          NSF Projects. Failing to adhere to NCCU’s policies concerning fixed assets can
          cause the loss or misuse of NSF supported assets and adversely affect the ability of
          meeting NCCU’s programmatic objectives.

Recommendation No. 8: We recommend that the Director of NSF’s Division of Institution and
Award Support address and resolve the following recommendations for implementation by
NCCU:

      8.1 NCCU should exercise greater care in their annual physical inventory process.
          NCCU should maintain a checklist containing all locations where physical counts
          need to be performed and an authorized person should review this checklist before
          and after completion of physical counts, to ensure completeness in physical
          verifications.

      8.2 In addition, NCCU should exercise greater care when loaning laptops to students to
          ensure their prompt return and should follow-up on any discrepancies in the
          inventory count and adhere to their own internal control policies and procedures
          related to reporting and handling a theft.




                                                                                          Page 19
NCCU Response to Finding No. 8:

North Carolina Central University has a very comprehensive inventory system. We hire extra
temporary workers annually to assist with inventory taking; therefore, we have independent
parties counting and identifying capital inventory. Additionally, we have a complete listing of
asset locations. A review of the inventory is performed daily by the Fixed Asset/Reconciliation
Office Supervisor.

The audit sample consisted of 52 items. The one item not inventoried was the result of an
entire building not being accessible due to a complete renovation of the building in the prior
year. This exception was an isolated event.

The stolen laptop was reported to Campus Police. A copy of the police report was provided.
The $965 should therefore not be a questioned cost.

WS+B Response to NCCU Response:

We believe that NCCU’s omission of performing a complete inventory verification of an entire
location is due to a failure of internal control to ensure the completeness of the physical
inventory. NCCU’s inventory process omitted a whole location and should not be categorized as
an isolated incident. As noted in our recommendation, NCCU should strengthen its annual
physical inventory process.

Further the police report for the stolen laptop with a purchase cost of $965 was provided by
NCCU at the time of responding to the draft report (02/26/11). We have reviewed the police
report and noted that the laptop was stolen from the student custody. Consequently we
removed the $965 from questioned cost.


Finding No. 9) Lack of Compliance with NCCU’s Own IT General Controls

       •   Process: IT General Controls - Program Development and Changes – Unapproved
           Changes and Patches not Timely Applied

           1) Per current process, all program changes are documented via a RFC (Request
              for Change) and require an approval from the Director of Enterprise Application
              Services before the program charges are moved to the production environment.

              In the 4 samples we tested for program changes the following exception was
              noted:

              -   For RFC-702 - the operating system (OS) update "SUNWeu80s" was
                  installed on the production server - Nepture on 03/04/2010. The
                  corresponding ticket RFC-702 was created on 03/09/2010 and does not show
                  a formal approval by the Director - EAS as required.


           2) Per current process, in case of the critical servers, once every two months
              patches to be applied are identified and verified that they were tested in the test
              environment. Then after notifying the data owners, a downtime is scheduled and
              the patches are applied.


                                                                                          Page 20
       In the 3 samples we tested for application of patches the following 2 exceptions
       were noted:

       -   The server INB1-A was last patched on 9/23/2009 and
       -   The server SSB01 was last patched on 11/1/2009.

       The patch level for the 2 sampled servers was not up to date (within 2 months)
       as required by the control. This appeared to be due to an oversight on the part of
       the person performing the control.


•   Process: IT General Controls - Logical and Network Security – Terminated
    Employees’ User Accounts Not Completely Disabled

    Per current process for employee terminations, HR and/or someone from the user’s
    department submits a request to the ITS team (AD) to revoke access. This request
    may be submitted via email or the helpdesk system. Depending upon circumstances,
    the user’s account is disabled immediately or at the effective termination date. The
    account is then moved to a folder called “Purgatory”. The helpdesk system
    automatically escalates open tickets to ensure that the required action is taken and
    the ticket closed.

    In the 2 samples we tested for terminations the following 2 exceptions were noted:

       -   Termination of Director Disbursements (5/31/2010) - we found that while her
           Banner system account was deleted, her Active Directory account was not
           deleted and was found to be active at the time of the testing on 06/14/2010.

       -   Termination of Director of Office of Sponsored Research (1/25/2010) - we
           found that while his Active Directory account was disabled, his Banner
           account was not deleted and was found to be active at the time of the testing
           on 06/14/2010.

    For both the samples that were tested for terminations, user accounts were not
    completely disabled and were found to be partially active.


•   Process: IT General Controls - Physical Security – Authorized User List for Access to
    Data Center Was Not Current

    Per current process, the data center has 2 points of entry – “Door 1” having a card
    based access control system and “Door 2” having a physical door lock /key based
    system. Only authorized users have been provided access to the Data Center. The
    physical keys for “Door 2” are also provided to only authorize users and the list is
    displayed on the door.

    In the test of access to data center the following minor exception was noted due to
    oversight on the part of the person performing the control.




                                                                                  Page 21
           The list of authorized users displayed at the data center is not current and does not
           match the system generated list of users having access to the data center. Inquiry
           with the Director - EAS confirmed that each of the users appearing on the system
           generated access list needs access to the data center.

           As the above exception does not result in a direct risk of unauthorized access, we
           consider this to be a minor exception.

           None of the above exceptions resulted in questioned costs related to the NSF
           Projects, however the lack of the above IT controls could compromise the systems
           that are used to administer the NSF projects.

Recommendation No. 9: We recommend that the Director of NSF’s Division of Institution and
Award Support address and resolve the following recommendations for implementation by
NCCU:

NCCU should exercise greater care in their controls over the IT system and perform the
following control activities as designed:

       9.1 Ensure that all program change requests are approved by Director – EAS before
           being implemented in production environment. Someone of authority should be
           tasked with the responsibility of ensuring that program changes are not allowed to be
           moved into production without the required approval.

       9.2 Ensure that all critical servers are patched and kept updated as per the corporate
           policy.

       9.3 Ensure that the access for terminated employees is revoked on a timely manner from
           both the Active Directory and Banner System.

       9.4 Ensure that the authorized users list displayed on the data center is updated to
           reflect the current list of authorized users who have access to the data center.

NCCU Response to Finding No. 9:

1) The change management system allows ITS senior management to give verbal approval so
that services can be restored.
2) At the time of the noted exception, NCCU was in the process of upgrading from Banner 7.X
to 8.X. ITS evaluation determined the patches in question may have adversely affected the
production systems if installed prior to the completion of the upgrade. All patches were applied
after the Banner upgrade was completed and all systems had been completely tested and
verified.
3) When a user’s Active Directory account is disabled, it is no longer possible for the user to
access the Banner system. It is important to note that NCCU uses a multi-level account
security. Banner access is NOT possible without Active Directory (AD) access. For both of the
samples listed in this finding, the multi-level security did what it was designed to do.
4) The paper listing that was posted has been removed and electronic listing implemented.

Refer to Appendix A for NCCU’s complete response.




                                                                                         Page 22
WS+B Response to NCCU Response:

NCCU Management's response to recommendation 9.3 does not address the risk of
unauthorized access to the Banner system by an internal NCCU user. Thus, if the AD account
of a terminated user is disabled but his Banner account is not disabled, there exists a risk of
unauthorized access to the Banner system by an internal NCCU user using his own AD account
and the terminated user's Banner account. We have not performed any additional procedures to
verify NCCU management claims about remedial actions instituted and recommend that NSF
Management pursue this issue as part of its audit resolution. However, none of our findings
resulted in questioned costs.


Finding No. 10) Inadequate Internal Controls over NSF Grant Compliance Requirements
for Cost Share and Conflict of Interest


       •   Process: Compliance - Cost Sharing – One Percent Cost Share Requirement Not
           Met

           We reviewed the compliance by NCCU with respect to the cost sharing requirement
           of the awards centered on the 1% statutory requirement per the NSF Grant Policy
           Manual Section 330 since there is no other cost sharing required/budgeted in any of
           the awards under audit. We noted the elimination of the statutory 1% requirement as
           a result of NSF’s issuance of the revised Grant General Conditions (GC-1) effective
           June 1, 2007. Per a summary of the significant changes to the GC-1 published by
           NSF and posted to their website in May 2007 the following explanation was provided
           addressing the elimination:

                   “Elimination of the statutory 1% cost sharing requirement. In accordance
                   with prior Congressional requirement, NSF required that each awardee
                   share in the cost of research projects resulting from unsolicited proposals.
                   The appropriations providing funds to NSF no longer contain this language
                   and therefore, the statutory cost sharing requirement of 1% is eliminated.”

           However the following awards started prior to June 1, 2007 and, therefore, are
           required to provide the 1% statutory cost sharing discussed above:

                   - 554311 (award GEO-0607961) (Fiscal year 2009 Actual costs of $20,091
                     and required Cost sharing of 1% of $201)
                   - 554308 (award HRD-0411529) (Fiscal year 2009 Actual costs of $306,029
                     and required Cost Sharing of 1% of $3,060)
                   - 554312 (award HRD-0625092) (Fiscal year 2009 Actual costs of $93,240
                     and required Cost Sharing of 1% of $932)

           Per our discussion with the Director of the Office of Sponsored Research, NCCU has
           not complied with the 1% cost sharing requirement for the fiscal year ended June 30,
           2009 and total cost sharing per our estimate for fiscal year 2009 for the three
           projects amounts to $4,193. NCCU should be able to determine the dollar amount of
           cost sharing for all NSF projects that were prior to June 1, 2007 cut-off and make
           adjustments to its claims accordingly.



                                                                                        Page 23
        • Process: Compliance - Conflict of Interest -          Lack of PIs Maintaining Annual
          Disclosure Statement Forms

          We inquired as to NCCU’s compliance with NSF Proposal and Award Policies and
          Procedures Guide, Part II Award and Administration Guidelines (AAG), Chapter IV
          (A), Conflict of Interest Policies as they pertain to the Principal Investigators on the
          NSF awards.

          Our inquiry and procedures indicated that the annual disclosure statements were not
          completed by the Investigators for any of the awards under audit for fiscal year 2009.
          In addition, the University’s policies encompass the majority of the NSF policy
          requirements but do not reference the NSF policy requirement regarding notification
          of NSF’s Office of the General Counsel when appropriate to keep them informed if
          the institution finds it is unable to satisfactorily manage a conflict of interest resulting
          in non-compliance with NSF policy.

Recommendation No. 10: We recommend that the Director of NSF’s Division of Institution and
Award Support address and resolve the following recommendations for implementation by
NCCU:

NCCU management should exercise greater control over the tracking and reporting of the
required 1% statutory cost sharing. In addition, they should comply with NSF guidelines
pertaining to conflict of interest documentation.


NCCU Response to Finding No. 10:

The non-compliance with the 1% cost share requirement stems only from NCCU’s interpretation
of the federal abolishment of that requirement in 2007. NCCU interpreted the abolishment to
mean that from the date of the 2007 abolishment forward, the 1% cost share requirement no
longer applied. WSB’s position is that for awards received prior to the 2007 abolishment, for
which funds are still being received, the 1% requirement still applies post 2007.

NCCU has now implemented a process to ensure that annual disclosure statements are
completed by all Principal Investigators on all NSF awards.

WS+B Response to NCCU Response:

There is no change in our position as it relates to the 1% cost sharing requirement. We are
encouraged that NCCU has now implemented a process to ensure annual disclosure
statements are completed but we have not done any additional procedure to test the new claims
of NCCU Management. There is no change in questioned costs as noted in the finding.




                                                                                              Page 24
  Summary of NCCU Response and Auditors’ Comments

In responding to the draft report on February 26, 2011, NCCU management was in agreement
with only Finding # 6 related to Inadequate Accounting and Reporting of Indirect Costs from our
total ten findings included in the draft report. Three of the ten findings did not involve any
questioned costs, and NCCU provided responses including new procedures implemented to
address internal control observations from our report. In respect of the balance six findings,
NCCU provided additional explanations and new information. WS+B reviewed NCCU’s
responses and in one case (related to questioned costs of $965 under Findings No. 8 - Fixed
Asset Physical Inventory Deficiencies) where documentary evidence was provided, we agreed
with NCCU and accordingly reduced the questioned costs. In all other cases, NSF needs to
review and conclude as to the allowability of questioned costs wherever noted in the report.
WS+B breakdown of $351,340 in questioned costs (including questioned participant support
costs) and $4,193 in questioned cost sharing is as follows:

Finding #    Finding Description       WS+B                        Comments
                                     Questioned
                                       Costs
            Lack of Procedures
            for Enforcing                            NCCU should strength its controls and
                                                $0
    1       University’s Own                         follow its own policies and procedures.
            Budgetary Policies

                                                  1) NCCU indicated that $215,853 were
                                                  spent on participant support costs,
                                                  however, no breakdown of the amount
                                                  spent by awards was provided to assess
            Lack of Adequate
                                                  the compliance with specific individual
            Internal Control for
                                                  awards.
            Budgeting and
                                                  2) No explanation was provided for the
    2       Accounting for               $266,007
                                                  balance $50,154.
            Participant Support
                                                  As a result of (1) & (2),WS+B retained
            Costs
                                                  $266,007 as questioned costs and
                                                  recommends that NSF follow up as an
                                                  item for audit resolution


                                                   Since NCCU is following State rules as
            University & Federal
                                                   per A-21, WS+B recommends that NSF
            Travel Policies Not
    3                                       $2,621 follow up as an item for audit resolution.
            Followed

                                                  WS+B recommends that NSF follow up
            Lack of Adequate                      whether the cost incurred by NCCU
            Control over                          without specific approval on purchase of
    4                                     $45,471
            Equipment Purchases                   GPS Robots and additional computers -
                                                  both not forming part of original award is
                                                  allowable.



                                                                                        Page 25
5    Payroll and Fringe        $17,152 WS+B recommends that NSF follow up
     Benefits Procedures               as an item for audit resolution.
     not followed

     Inadequate
     Accounting and                      NCCU concurred with the questioned
6                              $20,089
     Reporting of Indirect               cost.
     Cost

                                      NCCU should strengthen its compliance
     Inadequate
                                      function and track sick/ vacation for all
     Compliance with
                                      categories   of     employees.    WS+B
7    University’s Own              $0
                                      recommends that NSF follow up if
     Background /
                                      compensation based on deliverables vs.
     Reference Check
                                      hours worked is allowable.
     Policies

                                      Based on NCCU response on the draft
     Fixed Assets Physical            report and additional documentary
8                                  $0
     Inventory Deficiencies           evidence provided, WS+B removed the
                                      $965 questioned costs.


                                      NCCU Management’s response does not
     Lack of Compliance               completely address the identified risk of
9                                  $0
     with NCCU’s Own IT               unauthorized access to Banner GL
     General Controls                 system. However, WS+B recommends
                                      that NSF review and follow-up NCCU’s
                                      claims of remediation.

                              $351,340
     TOTALCOSTS
     QUESTIONED


     Inadequate Internal
     Controls over NSF                   WS+B recommends that NSF follow up
10                              $4,193
     Grant Compliance                    as an item for audit resolution.
     Requirements for
     Cost Share and
     Conflict of Interest


     TOTAL COSTS AND          $355,533
     COST SHARE
     QUESTIONED




                                                                         Page 26
NCCU has indicated in its response that it has accepted $70,928 of questioned costs and none
of the $4,193 in questioned cost sharing. NCCU has not provided details of the breakdown of
$70,928.

In addition, NCCU responded to the Executive Summary of the report in Appendix A. NCCU
noted that NCCU was audited by NSF in spite of the fact that North Carolina Central University
latest issued audit by the Office of State Auditor for 2009 reported no material weaknesses in
internal control. We disagree with this statement as the performance audit was instituted in
November 2009. The 2009 state auditor report was dated June 22, 2010 and thus was not
available to NSF at the time the performance audit was performed (Jan to June 2010).

Further, NCCU commented that the audit performed does not mention the limitations of a
system of internal controls but identifies questioned costs and then basically claims that their
questioning of costs is equivalent to a control weakness. We disagree as this performance audit
was primarily instituted to evaluate NCCU internal controls and it was the weakness in internal
controls that subsequently resulted in questioned costs and not vice-versa.




                                                                                         Page 27
                STATUS OF PRIOR AUDIT FINDINGS
During our audit, we performed a follow up on the internal control deficiencies and
noncompliance with laws, regulations, contracts, grant agreements or other matters identified in
various audit reports issued by OSA from 2008 onwards. Further we noted that the Financial
Statement Audit Report (A-133) for the year ended June 30, 2009 did not report any
deficiencies.

The status of the deficiencies identified in various reports from 2008 is as follows:

REPORT 1

Financial Statement Audit Report (A-133) for the year ended June 30, 2007 prepared by
the Office of the State Auditor dated June 13, 2008

Findings:

1. Deficiencies in Financial Reporting & Bank Reconciliation:
       - The financial statements prepared by the University contained misstatements that
           were corrected as a result of State audit.

       -    The University did not prepare bank reconciliations accurately or timely during our
            audit year. This increases the risk that an error or misappropriation could occur and
            not be detected in a timely manner.

WS+B Comment: These deficiencies do not impact NSF Grants directly and thus were not
included in our NSF performance audit scope. However, WS+B reviewed the amounts reported
to NSF and verified the following:

       -    FFR Reporting spreadsheet is prepared by Grant Accountant and reviewed and
            approved by Director Contracts and Grants. The balance on the spreadsheet was
            traced to the FFR report and GL. No significant variances noted.
       -    Reviewed sample of drawdown amounts and traced them to the Bank Statement and
            GL. No significant variances noted.

In addition, WS+B noted that this deficiency was not reported in the State Auditor Audit Report
for the year ended June 30, 2008.


2. Information System Access and Security needs to be strengthened: The University has
weaknesses in assigning information system access rights and security classes, as well as the
monitoring of information technology activity. These deficiencies could result in unauthorized or
inappropriate transactions.

State Auditor Recommendation: The University should limit system access rights to ensure that
employees are assigned the least amount of system access necessary to perform their job.
Adequate segregation of duties should be maintained. System access rights should be
reviewed on a regular basis and the Information Technology Manager’s activity should be
monitored.



                                                                                          Page 28
NCCU Response as stated in audit report: The University concurs. The University has
implemented a process whereby monthly security reports of user access are provided to the
functional areas for review. Additionally, the University underwent a security assessment by an
external technology firm to identify areas for improvement. The University is also monitoring all
Banner activity of the IT staff, including the Database Administrators via logs, which is
accessible only to the IT Security Officer and the Chief Information Officer. The activity of the
Information Technology Manager is being monitored.

WS+B Comment: Refer to WS+B comment under “Report 2 – Finding # 2”.

3. Untimely Notice to Lenders of changes in Student’ status: The University did not provide
student financial aid lenders with timely notice when students withdrew from the University.

WS+B Comment: This deficiency does not impact NSF Grants and was not included in our NSF
performance audit scope.


REPORT 2

Financial Statement Audit Report (A-133) for the year ended June 30, 2008 prepared by
the Office of the State Auditor dated March 17, 2009

Findings:

1. Deficiencies in Payroll Processing: The University paid several employees incorrectly
during the year. We identified $13,383 in salary overpayments and $6,217 in salary
underpayments.

State Auditor Recommendation: The University should take the steps necessary to ensure that
employees are paid in accordance with their approved salaries and to review and correct prior
payroll errors that resulted in over/under payments to employees.

NCCU Response as stated in audit report: We concur. The University has stabilized personnel
in the Payroll Office, re-organized the Human Resources function, and is reviewing
employment/payroll practices.

WS+B Comment: The University has stabilized personnel in the Payroll Office. All Payroll
personnel are permanent employees and have been performing the payroll function at NCCU
for the past 1-2 years. HR Department is also comprised mainly of permanent employees.

The Payroll office has instituted controls to detect instances of over/ under payment. The Payroll
calculation spreadsheets are reviewed for accuracy by the Payroll Manager or another person
who did not prepare the spreadsheets. According to the University, it is currently working to
automate the payroll processing by moving towards a Banner supported system. Banner is the
University’s Financial Record / General Ledger System.

However, we noted three instances (out of 20 samples tested) in which the amount paid to an
employee was in excess of the NSF Proposal/ Award, though the amounts paid matched the
approved employment contracts. Further, we tested 100% of Fringe benefits paid out of NSF
Grants and noted that Fringe benefits of $703 (out of a total of $ 38,747 for the year 2008-09)
were paid out of NSF Grant which was not allowed per the respective NSF Proposal/ Award.
We also tested 17 employees Time and Effort approvals (33 Forms) and noted 2 exceptions. In

                                                                                           Page 29
the first exception the employee’s entire salary was charged to NSF and no salary adjustment
was made for months where the employee’s did not spent 100% of the time on NSF grant.
Second exception related to non approval of Time & Effort Form.

Refer to the Findings and Recommendations section of this Report – Finding # 5 for more
details.


2. Information System Access and Security needs to be strengthened: The University had
weaknesses in the information system access rights, the security classes, and the monitoring of
information technology activity during our audit period. These could result in unauthorized or
inappropriate transactions.

State Auditor Recommendation: The University should continue in their efforts to limit system
access rights to ensure that employees are assigned the least amount of system access
necessary to perform their job and that adequate segregation of duties is maintained. System
access rights should be reviewed on a regular basis.

NCCU Response as stated in audit report: We concur. The University has put considerable
efforts into strengthening controls over security access and will continue to ensure that access
is granted to persons commensurate with job duties.

WS+B Comment: The University has strengthened existing controls and implemented new
controls over the process of granting and monitoring security access to the network and key
information system (Banner). However we found weaknesses in the operating effectiveness of
some of these controls that relate to removal of access after termination of staff. For both the
samples that were tested for terminations, user accounts were not completely disabled and
were found to be partially active.

Refer to the Findings and Recommendations section of this Report – Finding # 9 for more
details.


3. Deficiencies in managing student accounts: The University did not properly manage
students’ accounts. As a result, ineligible students were allowed to live on campus, students
were improperly allowed to register for classes, and the accounts receivable balance was
misstated.

WS+B Comment: This deficiency does not directly impact NSF Grants. However, on inquiry with
the PI/ Co-PI, we were informed that the University has developed a framework defining the
eligibility criteria for students to join programs funded by NSF and monitoring of the same. The
framework was not tested as this does not directly impact the NSF awards, therefore not
included in the scope.




                                                                                         Page 30
REPORT 3

Financial Statement Audit Report (A-133) for the year ended June 30, 2009 prepared by
the Office of the State Auditor dated June 22, 2010

Findings:

No Deficiencies were noted in the report.

WS+B Comment: WS+B met with the State Auditors in January 2010 and reviewed their work
papers for 2008-09 fiscal year audits. We noted that the control issues raised in the 2006-07
and 2007-08 reports had minimal impact on the audit scope of the WS+B 2008-09 performance
audit. Further, no issues were noted on the review of the work papers.


REPORT 4

Statewide Federal compliance audit procedures for the year ended June 30, 2009

Background:

The Office of the State Auditor performed audit procedures at NCCU as part of their audit of the
State of North Carolina’s compliance with the types of requirements described in the OMB
Circular A-133 Compliance Supplement that are applicable to each of its major programs for the
year ended June 30, 2009. The audit results were in relation to the audit scope at the University
and not to the State of North Carolina as a whole.

Findings:

1. Untimely notice to lender of changes in students’ status - The University did not provide
student financial aid lenders timely notice of students who graduated or ceased enrollment at
the University. State Auditors examined the notifications for 30 students who graduated or
ceased enrollment from the University and identified seven instances where the University failed
to provide timely notice. The seven notifications were four to 38 days late.

Federal Award Information: Award # P268K090326; Award Year July 1, 2007 to June 30, 2008

State Auditors Recommendation: The University should improve internal control to ensure
timely notification of changes in student status.

NCCU Response as stated in audit report: The University concurs with the audit finding and
recognizes the importance in strengthening controls pertaining to reporting graduating students
to the National Student Clearinghouse. We began reporting degree files every two weeks and
once monthly thereafter to the National Student Clearinghouse with the December 2009
graduating class. Every effort will be made going forward to make absolutely sure that each
student will be reported accurately and timely to the National Student Clearinghouse.

WS+B Comment: This finding did not impact NSF Grants and thus it was not included in our
NSF performance audit scope.




                                                                                          Page 31
REPORT 5

Special Review by the Office of the State Auditor (Feb 2008)

Background:

An allegation was received through the State Auditor’s Hotline concerning improper payments
made by the North Carolina Central University (University) Assistant Provost and Associate
Vice- Chancellor of Academic Affairs (Assistant Provost). The State Auditor’s review of the
allegations included the following procedures:
• Examination of checks, supporting documentation, and accounting records.
• Examination of graduate assistant contracts.
• Examination of federal grant proposals, awards, and reports.
• Interviews of current and former North Carolina Central University employees and students.
• Interviews of individuals external to North Carolina Central University.
• Examination of applicable federal, state, and North Carolina Central University policies and
procedures.
The review was conducted pursuant to G.S. 147-64.6(c)(16) rather than a financial statement
audit or review.

Findings:

1. The Assistant Provost improperly authorized payments of Federal Grant Funds. The
Assistant Provost inappropriately authorized graduate assistant contracts and honoraria for
unauthorized individuals.

State Auditor Recommendation: The University should implement administrative controls to
ensure funds are used according to federal, state, and local funding statutes and procedures. A
review of the payment authorization and grant administration process should also be performed.
The University should immediately begin procedures requiring the repayment of these funds by
the Assistant Provost.

NCCU Response as stated in audit report: The University will review its procedures to ensure
that we are in compliance with federal and state regulations and where appropriate, make the
necessary adjustments to further reduce the possibility of fraud. Consistent with state statutes,
the University will require the Assistant Provost to repay the funds.

WS+B Comment: On review of the University’s payroll process, we noted that there exists
proper segregation of duties starting from the approval of employee employment contract,
submission of the Time and Effort forms to the final disbursement to the employee. Proper
segregation of duties significantly reduces the risk of collusion. In addition to the PI, all Graduate
Assistant contracts have to be approved (electronic or wet signature) by the following: Dean,
Vice Chancellor, Comptroller and Director of Contracts and Grants or Grant Accountant. Further
the Director of Contracts and Grants in her review verifies if the employee payroll expense can
be charged to the Grant per the NSF grant award and other federal guidelines. Time and Effort
forms are approved by the Director of Contracts and Grants or Grant Accountant in addition to
the PI. Payments made through Payroll are reviewed by the Payroll Manager or designee while
payments made through Accounts Payable are reviewed by the AP Manager.

However, we noted three instances (out of 20 samples tested) in which the amount paid to an
employee was in excess of the NSF Proposal/ Award, though the amounts paid matched the


                                                                                               Page 32
approved employment contracts. Further, we tested 100% of Fringe benefits paid out of NSF
Grants and noted that Fringe benefits of $703 (out of a total of $ 38,747 for the year 2008-09)
were paid out of all 9 active NSF Grants which was not allowed per the respective NSF
Proposal/ Award. We also tested 17 employees Time and Effort approvals (33 Forms) and
noted 2 exceptions. In the first exception the employee’s entire salary was charged to NSF and
no salary adjustment was made for months where the employees did not spent 100% of the
time on NSF grant. Second exception related to non approval of Time & Effort Form. Refer to
the Findings and Recommendations section of this Report – Finding # 5 for more details.

No Honoraria payments were paid out of NSF Grants during the period 2008-09.

2. Documents related to improper payments were falsified and did not contain the
appropriate approvals.

State Auditor Recommendation: The University should continue to coordinate with appropriate
law enforcement authorities to determine whether the Assistant Provost’s conduct constitutes a
violation of North Carolina General Statutes or other regulation or law. In addition, the University
should take appropriate disciplinary action against the Assistant Provost, which should include
restitution.

The University should also implement administrative controls to ensure proper authorization of
graduate assistant contracts, so that such egregious misconduct of position, if not criminal
wrongdoing, is not repeated. All University policies and procedures that address accountability
should be relevant, adequate and, if appropriate, available in electronic format for ease of
access. The latest revision dates should be clearly stated on the policies and procedures.

NCCU Response as stated in audit report: The University’s Campus Police is conducting a
thorough review and continues to work with appropriate external law enforcement officials.
Additionally, the University will undertake a review of current procedures and strengthen, where
appropriate, to further reduce the possibility of fraud.

WS+B Comment: NCCU has written policies and procedures such as “Code of Ethics” and
“Whistleblower policy” which address Professional Integrity and Conflict of Interest. All the HR
related policies and procedures are uploaded on the NCCU’s website. If NCCU does not have a
policy on a topic, policies at the OSP (Office of State Personnel) or UNC-GA (University of North
Carolina Office of the President and General Administration) apply.

However, it was observed during the audit that NCCU Management is not maintaining proper
documentation in relation to background checks/ reference checks, along with degree certificate
checks. Refer to the Findings and Recommendations section of this Report – Finding # 7 for
more details.

Also see our response under “Report No. 5 - to Finding No.1 above.

3. The Assistant Provost violated University Policy by not reporting an improper
relationship in a timely manner.

State Auditor Recommendation: In combination with other audit findings in this report and in
light of the importance of the position of Assistant Provost, it is our opinion this violation
represents a very serious offense and the punishment should reflect this. The University’s
sanctions against improper relationships include a warning, a letter of reprimand, suspension


                                                                                             Page 33
(with or without pay), diminishment in rank, or discharge from employment. University
management should consider the strongest disciplinary action available given the magnitude of
the misconduct and send a clear message throughout the University that such conduct is not
tolerated.

NCCU Response as stated in audit report: In accordance with University policies and the results
of the investigative audit, the Assistant Provost has been removed from all administrative
responsibilities.

WS+B Comment: NCCU has written policies and procedures such as “Code of Ethics” and
“Whistleblower policy” which address Professional Integrity and Conflict of Interest. In our
discussion with Director- Internal Audit, we were informed that the University takes this matter
very seriously and any issue is immediately escalated to the Audit committee for corrective
action. In addition no instances of conflicts of interest or improprieties came to our attention
during our audit.

4. The Assistant Provost charged personal expenses to a credit card issued by the
University.

State Auditor Recommendation: Controls should be reviewed to ensure employees use credit
cards issued by the University for Business Use only. In addition, periodic audits of credit card
usage and appropriate management actions for violations should be undertaken. We believe it
would be prudent of the University to review the prior credit card audit.

NCCU Response as stated in audit report: The University will review controls over university-
issued credit cards and conduct periodic internal audits of credit card usage. It should be noted
that the University is not liable for individual credit card charges.

WS+B Comment:
  - On inquiry, internal audit informed WS+B that they did not perform any audit procedures
     on Credit Cards and Travel Expenses; therefore no such reports were available to us for
     review.
  - Employees are individually responsible for credit card charges. The expenses incurred
     on credit cards are paid by the employee and then are reimbursed by NCCU following
     multiple approvals including Travel Office, PI and Director Contracts & Grants.

Our test procedures identified that travel expenses were reviewed by the NCCU travel
department for State government rules, however detail evidence of compliance with Federal
government rules was not available specifically for lodging and meals. Other relatively minor
exceptions regarding Travel policies / reimbursement were noted in the Findings and
Recommendations section of this Report – Finding # 3 for more details.

5. Graduate Assistant payments were improperly charged to Federal Grants.

State Auditor Recommendation:         The University should make the proper accounting
adjustments to correct the improper charges to federal grants. The University should also
implement administrative controls to ensure proper use of these funds. Potential controls could
include updating the employment recommendation forms to require more specificity of the work
to be done, requiring a written job description signed by the student, requiring a written
evaluation of job performance signed by the supervisor and student, requiring timesheets to be
filled out by the student and approved by the supervisor, and ensuring these documents are


                                                                                          Page 34
reviewed by the Contracts and Grants or Budget Office to help ensure fund objectives are met.
We believe it would be prudent of the University to review all grants for proper accounting of
graduate assistant payments.

NCCU Response as stated in audit report: The University will review its current procedures and
make the necessary adjustments to further reduce the possibility of fraud. Additionally, the
University will review the improper charges and make the needed corrections.

WS+B Comment: See our response to “Report No. 5” - Findings No. 1 and 2 above.

Graduate Assistants are required to submit “Time and Effort Report” Forms on a monthly basis.
These forms contain details such as Grant Number, Percentage of Effort, Distribution of Effort
and the Month. The Forms are completed by respective personnel for their effort and forwarded
to PI for approval. On a monthly basis, PI reviews the Form and certifies the effort by sign-off on
the Form, and forwards them to C&G Office. During our audit, we did not find any exception
specifically related to Graduate Assistants payments; however refer to the Findings and
Recommendations section of this Report – Finding # 5 for other payroll related exceptions.

6. Honoraria payments did not have proper approvals and lacked written justification.

Honoraria payments were paid to individuals out of federal grants who advised the University on
research matters. This is allowable as long as it is in budget and associated with a task
specified in the grant. However, the State Audit found that honoraria did not have adequate
internal controls when compared to other service or consulting agreements. In addition, there
was no independent review of the credentials of the honoraria recipients.

State Auditor Recommendation: A University Vice Chancellor or above should review written
credentials of prospective honoraria recipients and should approve all honoraria forms. A
minimum of two signatures should be required on the honorarium authorization form. The
Contracts and Grants Office should require evidence of honoraria recipient attendance and
should include such documentation in the file.

Proper accounting corrections should be made for improper honoraria payments charged to
grants. We believe it would be prudent of the University to review all grants for proper
accounting of honoraria payments.

NCCU Response as stated in audit report: The University will undertake a thorough review of
the honoraria process and make the necessary revisions in requirements for documentation,
review, and approval to further reduce the possibility of fraud. Additionally, the University has
placed a moratorium on honoraria payments until controls are strengthened. Corrections will be
made for falsified honoraria payments.

WS+B Comment: No Honoraria payments were paid out of NSF Grants during the period 2008-
09 and thus not specifically addressed in our audit.




                                                                                            Page 35
REPORT 6

Special Review by the Office of the State Auditor (June 2008)

Background:

The Office of the State Auditor was contacted by the University of North Carolina General
Administration after they became aware of allegations regarding potential inappropriate use of
the NCCU computer networks. Allegedly, employees within NCCU’s Information Technology
Services Department misused the University’s networks and computers by downloading
copyrighted and pornographic materials. In addition, these employees allegedly circumvented
purchasing procedures to acquire items for personal use. The State Auditor’s special review of
these allegations included the following procedures:
   • Interviews with current and former employees of NCCU.
    • Examination of relevant documents and records of the University including purchase
        orders, invoices, fixed asset inventories, personnel files, and financial statements.
   • Review of policies and procedures and federal and State regulations including the North
        Carolina General Statutes and North Carolina Administrative Code.
   • Forensic analysis of computer data storage devices and network drives.

The review was conducted pursuant to North Carolina General Statute §147-64.6(c)(16) rather
than a financial statement audit or review.

Findings:

1. University Information Technology Services employees misused the University
network and computers by downloading movies, music, games, software, and
pornography.

State Auditor Recommendation: The University should take strong disciplinary action against
the Data Base Administrator and IT Manager. In addition, the University should review all items
for which they had access to determine the extent of their inappropriate use. Further, this review
should seek to determine whether the University’s computer system and network security were
harmed.

NCCU Response as stated in audit report: We concur with the recommendation. The University
has taken immediate disciplinary action by releasing the two employees in question from the
University. Furthermore, the following steps have been taken:
a) The University brought in a company that specializes in the assessment of security threats or
violations of security systems, Unisys Corporation, to do a complete NCCU threat assessment.
The threat assessment has been completed. No direct threats or intentional damage/ harm to
University computer systems or network security by the individuals in question were found. ITS
is proactively working with Unisys to address their recommendations on how to better secure
our networking equipment and computer systems.

WS+B Comment: This deficiency has no direct impact on NSF Grants and thus not included in
our NSF performance audit scope.

2. University Information Technology Services employees distributed copyrighted
materials.



                                                                                           Page 36
State Auditor Recommendation: The University should take strong disciplinary action against
the Data Base Administrator. The University’s copyright administrators should work in
conjunction with law enforcement personnel to determine whether federal copyright laws were
violated. Further, the University should perform periodic forensic reviews of its data networks to
determine whether unauthorized copyrighted materials are being accessed and distributed.

NCCU Response as stated in audit report: We concur with the recommendation. The University
has taken immediate disciplinary action by releasing the two employees in question from the
University. Furthermore, the following steps have been taken:
1. Information Technology Services (ITS) has taken proactive steps to ensure all ITS employees
are familiar with University policies regarding Copyright Materials and Federal copyright laws
contained in Title 17 of the United States Code. All ITS employees will be given copies of this
Federal code and attend an annual training session on Copyright laws.
2. ITS will state clearly in its employee guide that any such violation of this law will result in
strong disciplinary action being taken by the University up to and including dismissal.
3. ITS will deploy software during the summer of 2008 as recommended by an external Security
Consultant that can monitor the illegal downloading of movies, music, and games by all
University personnel.

WS+B Comment: This deficiency has no direct impact on NSF Grants and thus not included in
our NSF performance audit scope.

3. The Information Technology Manager was granted unauthorized access to another
University’s server in order to download music files.

State Auditor Recommendation: The University should take strong disciplinary action against
the IT Manager. In addition, the University should provide additional training to all Information
Technology Services Department employees that stress the need to ensure network security.

NCCU Response as stated in audit report: We concur with the recommendation. The University
has taken immediate disciplinary action by releasing the two employees in question from the
University. Furthermore, the following steps have been taken:
1. ITS is currently setting up a series of educational classes that will occur annually during the
summer months with all ITS employees that will address network security; privacy laws,
copyright infringement, and other topics related to responsible use of University computing
resources.

WS+B Comment: This deficiency has no direct impact on NSF Grants and thus not included in
our NSF performance audit scope.

4. There exists a lack of adequate controls over assets.

State Auditor Recommendation: University management should implement policies and
procedures to ensure that all equipment purchases are properly approved and tracked as to
where the equipment is being used. ITS personnel should work with the Fixed Asset Office to
implement procedures to ensure that equipment is properly accounted for.

NCCU Response as stated in audit report: We concur with the recommendation. The University
has taken steps to educate all employees within the ITS division about the Policies and
Procedures in place by the University Fixed Asset Office. Furthermore, the following steps have
been taken:


                                                                                           Page 37
       1. All ITS employees have completed and turned in fixed asset forms referencing any
       assets within their belongings. This process will be conducted annually to ensure all
       forms are up-to-date.

       2. ITS has met with both Purchasing and the Fixed Asset office to discuss existing
       University policies and procedures and the steps that need to be taken to ensure that
       employees are adhering to these policies and procedures.

       3. ITS has purchased and deployed an Asset Management System that will be used to
       track all assets purchased or maintained by the ITS division. By July 15, 2008, all ITS
       management assets will be tracked and managed by the new ITS asset management
       tool.

WS+B Comment: We were told that Management has implemented a more robust physical
inventory process that occurs annually; however we found two exceptions (observations with
respect to the May 2009 inventory):

   a) The asset with tag #19014 was not included in physical inventory count. Upon inquiry,
      the Fixed Asset Accountant informed us that one of the locations (Biology Building) was
      completely omitted from the Fixed Asset Count. After our inquiry the inventory of the
      assets at the Biology Building was performed by the Fixed Asset Team to verify their
      existence. The Fixed Asset Team provided us with pictures of the sampled asset as
      evidence of its existence and we physically verified the existence of the asset.

   b) There was one laptop item noted as stolen from our physical verification of five items, in
      the physical count results. Upon inquiry we were informed that the student did not return
      the laptop and, therefore, it was treated as stolen. The stolen laptop was not reported to
      campus police and no complaint was filed. Moreover no further efforts were made to
      recover the laptop from the student.

Therefore WS+B recommended NCCU (as included in the Findings and Recommendations of
this Report – Finding # 8) to follow-up on any discrepancies and adhere to their own internal
control policies and procedures related to the reporting of a theft.

5. Employees are not required to complete secondary employment forms.

Note: Per North Carolina State Personnel Manual, the employment responsibilities to the State
are primary for any employee working full-time; any other employment in which that person
chooses to engage is secondary. An employee shall have approval from the agency head
before engaging in any secondary employment. The purpose of this approval procedure is to
determine that the secondary employment does not have an adverse effect on the primary
employment and does not create a conflict of interest.

State Auditor Recommendation: University management should ensure that all employees
have completed a secondary employment form in accordance with State Personnel policies and
should annually remind employees of the need to complete the form if there have been any
changes.

NCCU Response as stated in audit report: We concur with the recommendation. The University
has taken steps to educate all employees within the ITS division about the Policies and


                                                                                         Page 38
Procedures in place regarding the completion of secondary employment forms. Furthermore,
the following mandate has been put in place:
ITS Managers will be held accountable for ensuring these forms are updated on an annual
basis.

WS+B Comment: This deficiency does not directly impact NSF Grants and thus was not
included in our NSF performance audit scope.

6. University officials do not properly verify degrees, prior employment and credentials
when hiring and promoting employees.

State Auditor Recommendation: University management should ensure that any discrepancies
that are discovered related to a new employee’s employment history and educational
achievements are noted and addressed. Any actions taken related to the discrepancies (up to
and including rescinding the employment offer) should be noted in the employee’s personnel file
for review in future promotions and/or hiring decisions.

NCCU Response as stated in audit report: The University agrees with the recommendation.
During the period in question, there were many vacancies in the employment area, which
contributed to the lack of proper verifications. Currently, the Department of Human Resources
has procedures in place for verifying credentials and/ or degrees. This issue has been
corrected.

WS+B Comment: It was also observed during our audit that NCCU Management is not
maintaining proper documentation in relation to background / reference checks, along with
degree certificate checks. See the Findings and Recommendations section of this Report –
Finding # 7.


News Article

October 17, 2008 - Chronicle.com - New Report Criticizes North Carolina Central
University’s Unauthorized Satellite Campus

Findings:

1. Students at a now-defunct unauthorized satellite campus of North Carolina Central
University got a tuition discount, and millions of dollars in federal student aid given to
them may have to be returned, according to an internal report issued on Thursday by the
University of North Carolina system.

The report says that students on the satellite campus, which was located at a church in Georgia,
paid $100 less per credit hour than what NCCU charged nonresident distance education
students, according to The News & Observer - the North Carolina newspaper that broke the
story about the camp in August.

The university system's report also says that, during its four years in operation, students on the
campus received more than $3-million in federal grants and loans. According to The News &
Observer, some of that money will be given back to the U.S. Department of Education and
around $55,000 will be reimbursed to the State of North Carolina for employee compensation
and operating costs.


                                                                                           Page 39
                               The university's Board of Trustees never voted on the satellite
campus, the report says.

The satellite campus was shut down in June, after the university's accreditor said it was not
authorized. The accreditor initially cast doubt on the validity of the students' degrees, but last
month said it would recognize the 25 degrees earned by students at the church.

State Auditor Report – Not addressed in any State Auditor Report.

WS+B Comment: This deficiency did not impact NSF Grants for the fiscal year 2008-09 period
and thus was not specifically included in our NSF performance audit scope for that period.




                                                                                           Page 40
        Appendix A: NCCU Responses to Audit Findings

Copy of E-mail Received from NCCU




NCCU Response to Executive Summary
North Carolina Central University was selected by the National Science Foundation for an
internal control audit due to the 2007 annual audit by the Office of State Auditor reporting a
material control weakness, a reported case of fraud, and an unauthorized satellite campus. This
is in spite of the fact that North Carolina Central University’s latest issued audit by the Office of
State Auditor for 2009 reported no material weaknesses in internal control.

Internal controls can assist in preventing errors and fraud but controls are subject to
management override, collusion, and error. Many controls are actually designed to detect error
or fraud after it has occurred since controls may not always prevent either. Internal controls in
place can easily lapse due to employee turnover, employee absenteeism, abnormally heavy
workloads, implementation of new procedures, and implementation of new financial or
management software. Even with good internal controls, there can not only be errors and fraud
but disagreements over the interpretation of rules, regulations, and policies.

The audit performed does not mention the limitations of a system of internal controls but
identifies questioned costs and then basically claims that their questioning of costs is equivalent
to a control weakness. North Carolina Central University has the control framework and
processes in place but there can be questioned costs in spite of this. NCCU adopts an annual
budget, amends its budget, audits invoices for expenses and travel, maintains time and effort
reports, tags and inventories equipment, monitors contracts and grants, and performs many
other control procedures. In none of the areas audited were there no control procedures in
place. In spite of these procedures, there were transactions that may be reason for further
inquiry, disagreement, or questioned costs. NCCU is committed to maintaining controls to
manage funds in the most appropriate manner and will improve controls where the benefit of the
control outweighs its costs.

The audit identified $352,305 of questioned costs. In addition, WSB identified $4,193 in
questioned cost sharing. Based on the items identified by WSB, NCCU agrees with $70,928 of
questioned costs and none of the questioned cost sharing.



                                                                                              Page 41
NCCU Response to Findings

Finding No. 1: Lack of Procedures for Enforcing University’s Own Budgetary Policies

NCCU Response:

In North Carolina Central University’s written policy, there is no mention of a requirement to
seek the aforementioned prior approval. The policy does state that budget amendments are
processed based on the original budget. It is the practice of the University to seek approval for
budgetary transfers in accordance with NSF guidelines.

Apparently, the former Director of Sponsored Research informed WSB of an NCCU policy of
seeking prior approval from the awarding agency for budget transfers exceeding 25% of the
respective account balance at the time of transfer, which would result in constant seeking of
approval if based on an account balance.

Further investigation of the budget transfer for $1,507 was in fact appropriate. Federal
guidelines indicate that certain travel expenses are part of participant support costs. The State
of NC Chart of Accounts indicates that travel expenses are to be reported separately from the
other items comprising participant support costs. The $1,507 transfer was made to comply with
state reporting guidelines.

For grant 554310, the applicable scholarship was adjusted $3,297 using indirect cost funds
during Fiscal Year 2010. This adjustment resulted in expenses on the FFR report matching
expenses shown in the general ledger. NCCU was aware of the need for this adjustment prior
to WSB contacting NCCU about the audit, which is evidenced by emails between the Grants
Office and the Principal Investigator.

Lastly, Banner has been configured since 2006 to stop the processing of any purchase
requisitions, purchase orders, and invoice payments that are beyond the available budgetary
balance for each line item.


Finding No. 2) Lack of Adequate Internal Control for Budgeting and Accounting for
Participant Support Costs

NCCU Response:

From the inception date of all NSF awards through 6/30/09, NCCU’s accounting records and
supporting documentation indicate $215,853 of participant support cost expenditures. Please
see the schedule below for the account information comprising the participant support costs.
                                                    Acct
          Account Description                       Number                       Amount
                Stipends                            76911G                       $199,457

                                                    73141G -
                Travel                              73149G                       16,396

                Total Participant
                Support Costs                                                    $215,853

                                                                                            Page 42
For any disbursement, North Carolina Central University maintains supporting documentation
for our annual financial audit scrutiny. Moreover, for stipend payments, we maintained
supporting documentation that was approved by the Principal Investigator to verify participation
and the Financial Aid office to verify eligibility for each participant. The stipends listed above are
solely for participant support stipends (non-work related) and the University has supporting
documentation to that effect.

Although stipends and non-employee travel have always been exclusively for students, we have
now modified our general ledger to make it easier for outside parties to identify participant
support costs. We have also separated student participation stipends from student work-related
stipends. For example, account 76911G is now called Participants Stipends and that account is
used exclusively for that purpose. Account 614590 is now called Student Stipends Work
Related. The revised general ledger descriptions will enable NCCU to improve compliance with
participant support cost requirements.


Finding No. 3) University & Federal Travel Policies Not Followed

NCCU Response:

OMB circular A-21 states that costs incurred by employees and officers for travel, including
costs of lodging, other subsistence, and incidental expenses, shall be considered reasonable
and allowable only to the extent such costs do not exceed charges normally allowed by the
institution in its regular operations as the result of the institution’s written travel policy. NCCU
follows NC Office of State Budget Management’s (OSBM) policies and procedures which state
that OSBM policies for travel take precedence over federal guidelines governing the use of
federal grant funds. The $2,621 of expenses were properly supported, and properly approved
per OSBM guidelines and should therefore not be considered exceptions or questioned costs.

NCCU will continue to use state rates as required by NC OSBM and allowed by OMB circular A-
21.

NCCU will continue to approve actual travel based on supporting documentation in accordance
with state rates as required by NC OSBM and allowed by OMB circular A-21.


Finding No. 4) Lack of Adequate Control over Equipment Purchases

NCCU Response:

The finding indicates a budgetary control problem. The finding also recommends that NCCU
obtain NSF approval for major changes in equipment purchase agreements. NCCU believes
this item deals with interpretation flexibility in the terms of the award as opposed to one of
budgetary control. The interpretation flexibility issue also addresses when approval from NSF is
needed for changes in equipment purchases.

Regarding the GPS systems, the PI responsible for the grant stated that computers previously
on hand in the department were used for the project. Therefore, no additional computer
purchase was required. The PI also stated the proposal was only an initial estimate and actual
cost and configuration of the equipment at the time of order was different. The $34,975 should

                                                                                               Page 43
therefore not be questioned costs. Regarding the laptops, the PI responsible for the grant
indicated that 7 of the 12 laptops in question were ordered for persons who decided not to
participate in the 2009 Summer Enrichment Program at the last minute and the additional
laptops were used to replace students’ computers that either crashed or had damage that
usually took longer than a week to repair. In addition, the PI indicated all of the laptops in
question were used by Initiatives for Transforming and Sustaining Science, Technology,
Engineering and Mathematics (ISSTEM) Program students who were STEM majors. The
$10,496 should therefore not be questioned costs.

In both cases, award interpretation flexibility as circumstances changed is the issue rather than
one of budgetary controls. NSF approval was not sought based on award interpretation
flexibility.


Finding No. 5) Payroll and Fringe Benefits Procedures not followed

NCCU Response:

It is the practice of North Carolina Central University to seek approval from any granting agency
to pay excess salaries. One week prior to the start of program, the PI for the ISSTEM Program
had to appoint a new program manager as the former manager abruptly resigned. Given the
lateness of the resignation, an email notification was sent to NSF of this change. The new
program manager was previously the Instructional Technology and Banner Specialist to
ISSTEM. A stipend of $10,167 was added to his prior salary to match the salary of the former
program manager. The former program manager’s position had previously been approved by
NSF.

The finding indicated that an employee only spent 70 – 80% of their time on NSF activity, but
100% of the salary was charged to an NSF award. The employee worked full-time on the NSF
activity and additional time after hours on a nonrelated project. As more than 100% effort
cannot be shown on the time and effort form, the 20 – 30% was reported as a means to
document the overtime on the nonrelated activity. As an exempt employee from the state
personnel act and the federal fair labor standards act pertaining to overtime compensation, the
employee did not receive additional compensation for the overtime and was merely trying to
show the 20 – 30% as in kind. Going forward, we will address how overtime effort for
employees is captured.

Lastly, Management did not state that deliverables for the NSF project were achieved by the
employee expending 70 – 80% of his effort on the project, as reported in the Executive
Summary. Therefore, the $6,300 is not an excess charge.


Finding No. 6): Inadequate Accounting and Reporting of Indirect Cost

NCCU Response:

NCCU concurs with finding No. 6.




                                                                                          Page 44
Finding No. 7) Inadequate Compliance with University’s Own Background / Reference
Check Policies

NCCU Response:

Background checks, reference checks and degree certificate checks are performed for
employees subject to the State Personnel Act. Reference checks and degree certificate checks
are performed for employees exempt from the State Personnel Act. Proper documentation is
maintained for these checks. One exception was found in WSB’s sample of approximately 12
employees. Each hiring department performs reference checks and forwards the results to a
central location - Human Resources. Human Resources reviews the information and requests
changes and additional information from the hiring department as needed. Background checks
for employees subject to the State Personnel Act is a centralized process performed by Human
Resources. As this information is centrally located in Human Resources, NCCU does not see
the need for it to be forwarded to the Director of Contracts & Grants.

NCCU tracks sick / vacation leave based on state employee class. Certain classes of state
employees are not eligible to earn leave; it is therefore not tracked for those types of
employees. Non-administrative exempt from the State Personnel Act employees, Post
Doctorate Students, Graduate Assistants and Students receiving work based stipends do not
earn leave. They are all compensated based on the completion of the work product or
deliverable and not based on hours worked. The concept is similar to that of someone
performing professional services. They may quote a price for completing a certain task. If they
complete the task in 40 hours, 90 hours or 30 hours, the compensation is the same per the
terms of the agreement. If the work product or deliverable isn’t completed, the department
would inform Contracts & Grants and/or Human Resources. The aforementioned employee
classes’ pay would then be adjusted as instructed by the department.


Finding No. 8) Fixed Assets Physical Inventory Deficiencies

NCCU Response:

North Carolina Central University has a very comprehensive inventory system. We hire extra
temporary workers annually to assist with inventory taking; therefore, we have independent
parties counting and identifying capital inventory. Additionally, we have a complete listing of
asset locations. A review of the inventory is performed daily by the Fixed Asset/Reconciliation
Office Supervisor.

The audit sample consisted of 52 items. The one item not inventoried was the result of an
entire building not being accessible due to a complete renovation of the building in the prior
year. This exception was an isolated event.

The stolen laptop was reported to Campus Police. A copy of the police report was provided.
The $965 should therefore not be a questioned cost.




                                                                                        Page 45
Finding No. 9) Lack of Compliance with NCCU’s Own IT General Controls

NCCU Response:

NCCU ITS is always improving processes and procedures and constantly striving to improve the
reliability of our user systems and user experience and reliability.

i)     As production services are very important to the operation of the University, the change
       management system allows ITS senior management to give verbal approval so that
       services can be restored. Documentation within the change management system will
       indicate that such an emergency occurred and that verbal approval was given.
ii)    At the time of the noted exception, NCCU was in the process of upgrading from Banner
       7.X to 8.X. ITS evaluation determined the patches in question may have adversely
       affected the production systems if installed prior to the completion of the upgrade. All
       patches were applied after the Banner upgrade was completed and all systems had
       been completely tested and verified. Future server system patches will be evaluated by
       NCCU ITS for their appropriateness and timeliness of adoption. Once it is determined
       that new server system patches are safe and will not cause any issues to the
       productions systems, the patches will be scheduled into production.
iii)   When notified, NCCU ITS promptly deactivates employees’ network access. When a
       user’s Active Directory account is disabled, it is no longer possible for the user to access
       the Banner system. It is important to note that NCCU uses a multi-level account
       security. Banner access is NOT possible without Active Directory (AD) access. For both
       of the samples listed in this finding, the multi-level security did what it was designed to
       do.
iv)    The most accurate way to provide a current listing of authorized personnel to the Data
       Center is to provide an electronic listing to the agency or official requesting the
       information. The paper listing that was posted has been removed.

       Access to the Data Center by visitors, that are not listed as authorized to access the
       Data Center, will only be allowed once the visitor has successfully "Signed In" to the
       "Data Center Access Book" located at the reception area of the ITS department, 3rd
       floor room 3020 of the H.M. Michaux, Jr. School of Education Building. In addition, the
       visitor must be escorted while visiting the Data Center and must display the “Self-
       Expiring” name tag.

       The Key access into the Data center and the Network room from Hallway, 3030, has
       been removed. A blank cylinder with NO key-way was installed. This will allow staff in
       3030 to exit via the hallway door but no ingress access can occur. Access to the Data
       Center is via Security Card access through the front door via hallway 3045.

Finding No. 10) Inadequate Internal Controls over NSF Grant Compliance Requirements
for Cost Share and Conflict of Interest

NCCU Response:

The non-compliance with the 1% cost share requirement stems only from NCCU’s interpretation
of the federal abolishment of that requirement in 2007. NCCU interpreted the abolishment to
mean that from the date of the 2007 abolishment forward, the 1% cost share requirement no
longer applied. WSB’s position is that for awards received prior to the 2007 abolishment, for
which funds are still being received, the 1% requirement still applies post 2007.


                                                                                            Page 46
NCCU has now implemented a process to ensure that annual disclosure statements are
completed by all Principal Investigators on all NSF awards.




                                                                            Page 47
Copy of Police Report




                        Page 48
        Appendix B: Objectives, Scope and Methodology

Objectives
The objective of our internal control performance audit of NCCU was to provide an assessment
of the adequacy of NCCU’s internal control system for effectively accounting for, monitoring and
administering NSF awards in compliance with Federal and NSF award requirements. Our
objectives also included providing an assessment of the corrective actions taken by NCCU for
the internal control deficiencies (which may have an impact on NSF grants) identified in various
reports issued by OSA from 2008 onwards, including OMB Circular A-133 audit reports.

Scope
To address our objectives, we reviewed the NCCU’s internal controls over financial compliance,
reporting, and administration of all NSF awards for the period of July 1, 2008 through June 30,
2009 (“2008-09”).

As of June 30, 2009, NCCU had 9 active NSF awards. Total project costs incurred by NCCU
during the period 2008-09 from these 9 NSF awards were approximately $1.1 million.
Additionally, our scope included following up on the corrective actions implemented by the
NCCU in its response to internal control deficiencies noted in various State Auditor reports. The
results of our follow-up have been included in “Status of Prior Audit Findings” section of this
report.

Methodology
We conducted this performance audit in accordance with Generally Accepted Government
Auditing Standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable
basis for our findings and conclusions based on our audit objectives. Our audit fieldwork was
completed in June 2010.

The criteria we used for this performance audit included:

   •   The Committee of Sponsoring Organizations of the Treadway Commission’s report:
       Internal Control – Integrated Framework (COSO Framework);
   •   Generally Accepted Government Auditing Standards;
   •   NSF Grants Policy Manual (GPM);
   •   NSF Audit Guide
   •   NSF Audit Guide for Financial Audits of Participant Support Costs.
   •   NSF awards specific terms and conditions; and,
   •   OMB Circulars A-21, A-110 and A-133.

Our performance audit methodology followed the following four phases:
       Phase I             Planning
       Phase II            Fieldwork
       Phase III           Post-Fieldwork
       Phase IV            Reporting




                                                                                          Page 49
Phase I: Planning

We held a planning meeting on November 11, 2009 led by the Engagement Partner. The
advisory partner, managers, and staff assigned to the audit were in attendance. The nature of
the audit assignment and specifically the issues that NSF-OIG identified in its Request for
Quotation (RFQ) were discussed. Further, we reviewed the OMB A-133 Audit reports of North
Carolina State Auditor for NCCU for the years ended June 30, 2007 and June 30, 2008, and
various other investigative reports to obtain a better understanding of the issues involved.
Finally, the audit scope was determined based on our assessment of the inherent risks and the
control risks at NCCU and on our prior internal control audit experience.

An audit planning document was prepared documenting our audit scope, audit procedures,
timeline and engagement team. The audit planning document details were discussed with NSF
during the Planning Phase Story Conference held on December 15, 2009 and the comments of
NSF were included in the final planning document.

Phase II – Fieldwork

Phase II included the on-site fieldwork at NCCU following the audit approach and methodology
documented in the Audit Planning Document discussed and agreed to by NSF-OIG at the end
of Phase 1. The Fieldwork phase was divided into two segments:

(1) Internal Control Assessment wherein we documented the significant processes in
Narratives and Risk Control Matrices leading to identification and evaluation of design
effectiveness of Internal Control. This was performed in January 2010, and

(2) Tests of Effectiveness of the Internal Controls, which was performed in June 2010.

   •   Segment 1 – Internal Control Assessment
       WS+B conducted the internal control assessment utilizing the components of internal
       control as presented in Internal Control-Integrated Framework (COSO Report). We met
       with senior executives and key operational staff and assessed NCCU’s control
       environment in terms of integrity and ethical standards, commitment to competence,
       management philosophy and operating style, organization structure, assignment of
       authority and responsibility, as well as human resource policies and practices. We
       reviewed existing process documentation (if any) and gained a more in-depth
       understanding of NCCU’s finance/accounting operations and the general control
       environment.

       We reviewed the audit work papers of the North Carolina State Auditor, for the year
       2007-08 for areas of risk related to NCCU’s accounting and reporting related to NSF
       awards. We also met with the State Auditor’s Field Manager and were informed that
       control issues reported in 2006-07 and 2007-08 had minimal impact on State Auditor’s
       financial audit scope for 2008-09.

       We performed walkthroughs of the following key processes:
          Contracts and Grants (includes cash receipts and recording, budget monitoring, cash
           management, accounting close and grant reporting/ FCTR, cost allocations, internal
           service charges and indirect costs, cost transfers and journal entries, participant
           support costs, travel expenses and use of NCCU’s credit cards)

                                                                                         Page 50
          Payroll and Benefits
          Purchasing and Disbursements
          Fixed asset accounting
          IT General Controls (includes program development and change management,
           access to programs and data, and Computer Operations)

       Walkthroughs entailed interviewing each of the process owners and key personnel for
       each process to gain a detailed understanding of each of the processes by “walking
       through” sample transactions from origin to completion along with supporting
       documents. The processes were documented in the form of various narratives. After the
       Narratives were reviewed internally at WS+B, they were provided to NCCU process
       owners for review and confirmation. Risk Control Matrices were also prepared to
       document the key internal controls and how they address the risks identified with respect
       to accounting and reporting for the NSF awards. Previous audit deficiencies reported in
       A-133 audits and other reports were also considered.

       Observations and recommendations to improve the internal control processes and
       procedures were identified and shared with NCCU following field work. An interim Story
       Conference with NSF by phone was held to share the preliminary observations during
       the field work. Final Narratives were provided to NSF for review in February 2010.

   •   Segment 2 – Tests of Effectiveness of Internal Controls
       Based on the key controls identified in the Internal Control Assessment segment, a Test
       Planning Document was completed and submitted to NSF along with the Risk Control
       Matrices in April 2010. The Test Plan covered detailed audit steps, attributes to be
       tested, and periods to be sampled. The sampling was based on the relative level of risk
       associated with the identified control, together with the frequency of the performance of
       the control and the population of relevant transactions/items affected. On confirmation of
       the Test Plans by NSF, the fieldwork testing was performed in June 2010.

       For each key control, a Test script was prepared documenting the samples that were
       selected, the attributes tested and the results of the test performed. All exceptions to the
       testing were highlighted and captured.

Phase III – Post-Fieldwork

At the conclusion of Phase II, we shared our test results with NCCU management along with
any audit deficiencies (compliance with internal controls) and questioned costs found.
Responses received from NCCU officials were documented. The test results were provided to
NSF in July 2010. All audit findings were further developed as to condition, criteria, cause and
effect and a Notice of Findings (NOF) report prepared. The NOF report was submitted to NSF in
August 2010.

Refer to the “Findings and Recommendations” section of this report for the results of the testing
performed and our recommendations to help strengthen internal controls at NCCU.

Phase IV – Reporting

Phase IV includes preparation and finalization of this report. A Phase 4 Story Conference was
held in January 2011 with NSF to discuss and finalize the performance Audit report.


                                                                                            Page 51
                  Appendix C: Glossary of Acronyms
CAAR                   NSF Cost Analysis and Audit Resolution Branch
DIAS                   Division of Institution and Award Support
Director – EAS         Director of Enterprise Application Services
Director of C&G        Director of Contracts and Grants at NCCU
FFR                    Federal Financial Report
GL                     NCCU Banner General Ledger
GPS                    Global Positioning System
HHS                    Department of Health and Human Services
IT                     Information Technology
ITS                    NCCU Information Technology Services
NCCU                   North Carolina Central University
NSF                    National Science Foundation
OIG                    Office of Inspector General
OMB                    Office of Management and Budget
OS                     Operating System
OSA                    Office of State Auditor
OSRP                   Office of Sponsored Research
RFC                    Request for Change
WS+B                   WithumSmith+Brown




                                                                       Page 52
        HOW TO CONTACT
THE OFFICE OF INSPECTOR GENERAL

            Internet
          www.oig.nsf.gov

            Email Hotline
             oig@nsf.gov

            Telephone
           703-292-7100



             Toll-free
          1-800-428-2189


               Fax
           703-292-9158


                  Mail
      Office of Inspector General
     National Science Foundation
    4201 Wilson Blvd., Suite 1135
          Arlington, VA 22230




                                    Page 53
